<html>
<title> - OVERSIGHT OF FEDERAL EFFORTS TO CLEAN UP ASBESTOS IN LINCOLN COUNTY, MT</title>
<body><pre>[Senate Hearing 110-1051]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1051
 
OVERSIGHT OF FEDERAL EFFORTS TO CLEAN UP ASBESTOS IN LINCOLN COUNTY, MT

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                        APRIL 5, 2007--LIBBY, MT

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate



                  U.S. GOVERNMENT PRINTING OFFICE
55-925                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                               __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                        APRIL 5, 2007--LIBBY, MT
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     1
Specter, Hon. Arlen, U.S. Senator from the Commonwealth of 
  Pennsylvania, prepared statement...............................   129

                               WITNESSES

Bodine, Susan Parker, Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency.........................................................     3
    Prepared statement...........................................     6
    Responses to additional questions from Senator Baucus........   993
Roose, Marianne B., commissioner, Lincoln County, MT Board of 
  County Commissioners...........................................   101
    Prepared statement...........................................   102
Black, Brad, M.D., Lincoln County Health Officer, medical 
  director, Center for Asbestos Related Disease..................   104
    Prepared statement...........................................   105
Thom, Leroy, board member, Libby Area Technical Assistance Group, 
  Inc............................................................   107
    Prepared statement...........................................   109
Audience Participants:
    Williamson, Lloyd Douglas....................................   116
    Benefield, Gayla.............................................   117
    Sullivan, Gordon.............................................   118
        Prepared statement.......................................   131
    Maynard, Clinton.............................................   119
    Flynn, Kevin.................................................   120
    Caldwell, Bill...............................................   121
        Prepared statement.......................................   136
    Carney, Eileen for Edna Johnson..............................   124
    Wood, Tom....................................................   124
    Priest, Alice................................................   126
    Parker, Mel..................................................   126

                          ADDITIONAL MATERIAL

Statement, Orr, DC...............................................   137


OVERSIGHT OF FEDERAL EFFORTS TO CLEAN UP ASBESTOS IN LINCOLN COUNTY, MT

                              ----------                              


                        THURSDAY, APRIL 5, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                         Libby, MT.
    The committee met, pursuant to notice, at 1:18 p.m., in the 
Ponderosa Room, Libby City Hall, Hon. Max Baucus presiding.
    Present: Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. The meeting will come to order.
    First I'll thank everyone for being here. Ms. Bodine, I 
appreciate your making the effort to come to Libby, and clearly 
thank everybody this afternoon, those who will be testifying 
and others that wish to say something, make statements. The 
whole goal here is essentially for the U.S. Government to serve 
all of you in Libby the best way possible. You're our 
employers. We work for you. I mean you're the--we're the hired 
hands. All of us, those of us in Congress and those who serve 
in the executive branch of government. So the whole point of 
this hearing basically is to help determine for you whether the 
job is being done right for all of you; that is, the cleanup 
and the CARD Clinic and all the efforts that are so necessary 
to redress and turn around the disaster which W.R. Grace caused 
with all the vermiculite and related diseases and dislocations 
that it's caused to the people of Libby.
    The goal here too is to soon have a time and date when all 
of this is behind us. That's really what this is about. Figure 
out how, as quickly as possible, we can close the chapter on 
the vermiculite and asbestos-related-disease problems as much 
as possible and get on with rebuilding Libby, new jobs and 
businesses, and just--and the times----
    (Brief interruption.)
    Senator Baucus. That's the goal. I have a prepared 
statement I'm going to read, and then we'll just take it from 
there. The book of Ecclesiastes teaches us that, ``For 
everything there is a season and a time for every matter under 
heaven, a time to break down, a time to build up, a time to 
mourn, a time to dance, a time to keep silent, and a time to 
speak.'' At today's hearing, coming as a long winter gives away 
to a new season, it is time to speak up about Libby's 
challenges and put your cleanup back on track. It has been 7 
years since news reports first exposed the extent of asbestos 
contamination in Libby, 7 years since I first met Les Skramstad 
over huckleberry pie at Gayla Benefield's home.
    That day I made a promise to Les and everyone in Libby, but 
especially to Les, because he was the one that I was talking to 
at the moment, that I would not stop fighting until Libby gets 
a clean bill of health. Our dear friend Les passed on this 
winter, but my promise to Les and the people of Libby remains. 
It is time to speak up again for Libby, to honor the memory of 
those who lost their lives because of asbestos exposure, to 
mark the progress made, and to see what remains to be done.
    Important progress has been made in Libby in the last 7 
years. In the year 2000, we secured money from Health and Human 
Services (HHS) to establish the CARD Clinic; we got money for 
Lincoln County through the HHS rural health outreach grant 
starting in 2003; and we got Lincoln County's health center 
funded starting in 2001, with an initial grant of $257,000. 
That health center recently got an infusion of $602,000 from 
HHS. I'll continue to push for more. We also worked to get 
Fannie Mae to give $75,000 worth of grants to the community for 
housing. I worked with the Social Security Administration to 
make a regulatory rule change so that it is now much easier for 
Libby's residents to qualify for disability benefits under the 
social security and supplemental security income programs. We 
learned the need for that when the secretary-elect was here 
last year.
    In addition, EPA has completed 794 emergency-response level 
cleanups of homes and businesses. Despite this progress, much 
remains to be done. In August 2006, I asked the inspector 
general to review EPA's work in Libby because we heard reports 
that not all that was being done that should be done.
    What that report found was truly outrageous. After 7 years, 
the EPA has failed to complete the necessary toxicity studies 
to determine the safe level of human exposure to Libby 
asbestos. That means that, after 7 years and hundreds of 
millions of dollars, EPA still cannot say how clean they need 
to make the homes and businesses to protect the families in 
Libby.
    In a subsequent letter, EPA promised me that they would 
begin the toxicity studies within 45 days. This hearing is an 
opportunity for the community to see what remains to be done 
and how--and to hold EPA's feet to the fire to make sure that 
they do it. I understand there was a hearing in March where 
some of this was laid out, and I want to nail that down more 
completely.
    I want to thank Ms. Bodine for joining us here in Libby 
today. This is pretty important stuff. As Assistant 
Administrator of the Office of Solid Waste Emergency Response, 
Ms. Bodine is in charge of the Superfund program.
    Ms. Bodine, the inspector general report raised many 
important questions. Why wasn't a toxicity study started 
earlier? When will the toxicity study be complete? How does EPA 
intend to correct the misinformation put forward in such EPA 
publications as Asbestos in Your Home, those comfort letters?
    Thank you for your time, and I look forward to your remarks 
and what you have to say. Commissioner Marianne Roose has also 
agreed to testify.
    Commissioner Roose has served Lincoln County since 1997. 
She brings a wealth of local knowledge, and I look forward to 
her testimony in how we can make Lincoln County healthier and a 
more prosperous place to live, work, and raise a family.
    Sitting next to her is Dr. Brad Black. Brad is also here to 
give us the medical community's perspective. Dr. Black is the 
medical director of the Center for Asbestos Related Disease 
here in Libby. Dr. Black has devoted his career to treating and 
advocating for the victims of W.R. Grace.
    It's good to see you, Dr. Black.
    Leroy Thom will testify about the continued needs of the 
community. Leroy worked for 17 years at W.R. Grace. He's the 
current owner of Montana Machine and Fabrication. Leroy is an 
active member of the Libby Community Advisory Group. Leroy, I 
look forward to your views of how we keep moving towards a 
clean bill of health.
    Finally, at the end of the hearing, we will have an 
opportunity for members of the audience to ask questions and 
make statements. I think it's very important that Ms. Bodine, 
as well as I, and all of us who are working on this, especially 
Ms. Bodine as head of the Superfund program, have an 
opportunity to hear from all of you firsthand how your lives 
are affected by the work that EPA does or does not do. I hope 
that someday soon there will be a new season in Libby, one 
where people in Lincoln County no longer wonder if their homes 
are safe for their children, a time when businesses move to 
Libby without hesitation. I look forward to that day when Libby 
finally gets that clean bill of health.
    Let me first turn to you, Ms. Bodine. Start out and--I read 
your written statement on the plane coming over here. Would 
love to hear what you have to say. I know the people of Libby 
would like to hear you too. So the floor is yours.

  STATEMENT OF SUSAN PARKER BODINE, ASSISTANT ADMINISTRATOR, 
      OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Bodine. Thank you, Senator Baucus. I want to thank all 
the members of the community who came to this hearing as well. 
I'm Susan Bodine. I'm the Assistant Administrator of EPA's 
Office of Solid Waste----
    Senator Baucus. I'm very sorry. I pronounced it Bodeen 
(phonetic). It's Bodine. I'm very sorry.
    Ms. Bodine [continuing]. Solid Waste and Emergency 
Response, which includes the Superfund program. We are the 
national program managers, the national directors of the 
Superfund program. As I'm sure most of you know, EPA is divided 
up into regions, so Region 8 out of Denver operates the program 
for the Montana area.
    I came into town yesterday. This is my first trip to Libby, 
and I greatly appreciate the hospitality, and I greatly 
appreciate what a beautiful community and what a fabulous 
location you have here in Libby. When I arrived, I had the 
opportunity to go around with some of the EPA team and look at 
some of the ongoing cleanup work, and I also yesterday had--
actually, this morning had the opportunity to meet with some of 
the community members as well. I met Dr. Black and Dr. 
Whitehouse, and we had a good discussion at the CARD Clinic. 
Then later this morning I had the opportunity to meet with 
Mayor Berget, as well as Commissioner Roose and other leaders 
in the community, to get a good perspective of the needs here. 
I'm sure that we will also hear more today. But I want to thank 
people for their willingness to talk to me, and I definitely 
appreciated what I heard.
    Now, I want you--everyone here--to know that I understand 
and folks who work with me understand, as the Senator said, 
just what a tragedy it has been in Libby and that this is very 
definitely a top priority for the Superfund program. The 
incidents of disease that you see here, we don't see that at 
our other sites. It's remarkable. We are committed to working 
with our State and our Federal and, of course, our local 
partners to take all the steps necessary to protect the public 
health and the environment here in Libby.
    I know that a lot of you know what has happened to date, 
and what you're most interested in, and what the hearing is 
about is, what's going on now and what's happening in the 
future. I do want to review the accomplishments to date. In 
particular, I want to recognize the extraordinary efforts of 
the EPA Libby team, the folks that are working here in town, as 
well as the folks based in Region 8.
    As you know, back in 1999, EPA sent an emergency response 
team to the community, immediately began collecting hundreds of 
samples from the soil, from the dust, from residences, from 
commercial facilities, and realized that there was a real 
problem. EPA identified where some of the major--the worst 
areas first; identified where some of the major locations were 
and conducted emergency removal actions at the high school, at 
the middle school, and at the elementary school. EPA 
immediately took action removing some of the high 
concentrations at the processing plants, the--export plant, and 
then realized that, we're in here for the long haul and began a 
comprehensive screening of--an attempt to screen--virtually all 
the properties in Libby.
    In 2002 to 2003, EPA inspected over 3,500 properties for 
the presence of asbestos-containing materials. In May 2002, EPA 
issued an action memo--a removal-action memo--that set out a 
process and a program for removing contamination from the yards 
and from the homes here in Libby where the sampling showed that 
we had asbestos-contaminated material.
    Now, through the end of 2006, as the Senator said, we've 
done 794 residential and commercial properties, the EPA team 
has removed more than 400,000 tons of asbestos-contaminated 
material and debris. Through those actions, they have greatly 
reduced the risk here, greatly reduced exposure, and I applaud 
them for it; I applaud the team for it. They've really done a 
yeomen's work. Folks that have been in a Staples recently will 
see that they're selling these red buttons that, if you press 
it, it says ``that was easy.''
    I was thinking earlier today that we need to get one of 
those buttons for the EPA folks here that says ``that wasn't 
easy,'' because it isn't. This is a very complicated site, and 
there are a lot of challenges that they've overcome, and a lot 
of challenges that remain.
    Now, I know that what you want to hear about is what's 
ongoing and what's going forward, so I want to talk about five 
significant areas where we have ongoing work and work planned. 
First issue, ongoing work, ongoing removals. We are working on 
developing a final cleanup standard so that we can identify 
what the final remedy is for the site, but we're not stopping 
removals. The removal actions, the yard cleanups, the home 
cleanups, they have been tremendously successful in reducing 
risks, and that work is not going to stop. So this year we're 
going to continue that, and the team is planning to do about 
160 properties this year.
    More ongoing work is additional remedial investigation. We 
have some more areas where we need to do some work--some 
investigative work. The mine, we need to do remedial 
investigation up at the mine. In addition, there's a little bit 
more investigation work that needs to be done at the processing 
areas, like the export plant and the former mill, the Stimson 
mill. The hope is that that work will let us know that we've 
cut off exposure there, because if we have completely cut off 
exposure there, then we can pick a final remedy for those sites 
early. We can pick that remedy soon, if there is no exposure 
left. So that's the purpose of the RI work, remedial 
investigation work.
    Then this year and next year we're going to be doing the--
through a cooperative agreement with the State of Montana--
we're going to be doing the investigative work in Troy. We 
expect to investigate 1,000 properties in 2007 and 2008, and to 
essentially do the screening in Troy such as what's done in 
Libby. That's the second area.
    The third area of work in 2007 is work that is both 
starting and continuing. First of all, on the exposure side, 
we're continuing with the ambient-air monitoring. In addition, 
we are doing both indoor and outdoor sampling that's activity-
based sampling. In other words, the team will go in and stir 
things up and then do air sampling to see if there are fibers 
detected in the air. That's going to help tremendously to let 
us know, what's been a success of the work that we've done to 
date.
    Then the fourth area I want to talk about is the toxicity 
assessment and the studies that are supporting that. We have 
had underway a noncancer study of Libby asbestos that's been 
done through Region 8, and we've also had underway a method--
developing a methodology that will allow us to use some of our 
existing work at Libby.
    In addition, we want to make sure that we have all the 
studies that we need to support a baseline risk assessment and 
support the toxicity assessment. So in January of this year, we 
convened a meeting down in Research Triangle Park, at EPA's 
laboratory down there, and invited 30 scientists to come--these 
are scientists from the EPA, but also from folks like ATSDR and 
other government agencies. We also heard from Gayla Benefield 
and Dr. Henningsen as well so that they could speak to the 
scientists and give them their perspective and their 
knowledge--the benefit of their knowledge of what's going on 
here in Libby.
    At that meeting, the group there identified a list of 12 
studies that will support the development of a final toxicity 
number, a final risk assessment for Libby. That includes the 
ongoing noncancer assessment, the ongoing methodology work, as 
well as a cancer assessment that the Office of Research and 
Development has started. In addition we will do a number of 
animal studies and some other in vitro studies which altogether 
will support each other--this whole suite of studies support 
each other--which then supports the development of a risk 
number for Libby.
    Then the fifth area I wanted to talk about was additional 
work on our analytic methods here. We want to make sure that 
our analytic methods are accurately detecting the fibers here 
in Libby. We have a series of four studies. These were also 
recommended by the group of scientists that we had down at 
Research Triangle Park. So those four studies are underway as 
well.
    Now, all this means is that we have this ongoing work, we 
expect to have those studies completed after--it will take 3 
years to do all of those studies, which means that we wouldn't 
be developing a final--a Record of Decision for the Libby 
residential community until that work is done.
    As I said earlier, we're looking at whether we think we can 
do a Record of Decision at the processing areas early if we've 
cut exposure off. But of course risk is both toxicity and 
exposure. All this work is happening in parallel, and in 
parallel with the ongoing removal action.
    So I want to report that to you and let you know that we're 
listening, and I understand the magnitude and the scope of the 
issue here, and I want to assure you that, at EPA, we are 
committed to protecting your community from exposure to the 
amphibole, and that we're going to continue to work on it until 
we're done. Thank you.
 Statement of Susan Parker Bodine, Assistant Administrator, Office of 
   Solid Waste and Emergency Response, U.S. Environmental Protection 
                                 Agency
    Good Afternoon. I am Susan Parker Bodine, Assistant Administrator 
of the Office of Solid Waste and Emergency Response, U.S Environmental 
Protection Agency (EPA). I am pleased to appear today to discuss the 
Superfund cleanup activities in Libby, Montana. The Libby Asbestos Site 
is one of the Agency's top Superfund priorities and we remain committed 
to working with our State, Federal and local governmental partners to 
take the steps necessary to protect human health and the environment in 
Libby.
                               background
    For more than 60 years, a vermiculite mine owned originally by the 
Zonolite Corporation and purchased by W.R. Grace in 1963, was one of 
Libby's largest employers. The now-closed vermiculite mine once 
produced a large proportion of the world's vermiculite--with an 
estimated output of more than five million tons from 1963 to 1990. The 
processed vermiculite ore mined in Libby was used as a soil conditioner 
and in the manufacture of insulation, packaging and other materials.
    Over the years it operated, the mine and related facilities 
employed a total of about 2,000 workers in Libby. The ore was milled 
and beneficiated (partly cleaned of impurities) on the mine property. 
After milling, the ore was transported to a screening plant where the 
ore was graded prior to shipment by railroad to other processing plants 
around the country. It also went to one of two processing plants that 
operated in Libby during different periods in the mine's history, prior 
to bagging for shipment.
    The vermiculite ore contained amphibole asbestos. Exposure to 
asbestos resulting from operation of the mine and related processing 
facilities has led to serious public health impacts among members of 
the Libby community. Asbestos-related health effects include malignant 
mesothelioma, an incurable, fatal cancer of the chest cavity which is 
associated with asbestos exposure. Further, exposure to asbestos is 
associated with an increased risk of all lung cancers, particularly 
when combined with smoking. Exposure to asbestos can also cause 
asbestosis, a debilitating respiratory illness caused by progressive 
scarring of the lung tissue that can also be fatal, and pleural 
abnormalities.
                    site investigations and response
    In November of 1999, the EPA sent an Emergency Response Team to 
Libby to investigate asbestos contamination in the community. EPA's 
first priorities were to assess the risk to public health from asbestos 
contaminated vermiculite in Libby and then take action to reduce this 
risk.
    In December of 1999, EPA began collecting samples--nearly 700--from 
air, soil, dust and insulation at residences and businesses. Indoor air 
sample results were released in January 2000, first to property owners 
and then to the general public. EPA determined that Libby amphibole 
asbestos was present at unacceptable levels in certain locations. EPA 
immediately began to inspect public schools for possible exposure to 
asbestos and to locate areas in and near Libby that were likely to have 
high levels of contamination. EPA took emergency removal actions at the 
Libby High School, the Libby Elementary School, and the Plummer 
Elementary School grounds. Removal actions were also taken at two 
former vermiculite processing facilities (the Export Plant and the 
Screening Plant).
    Between 2000 and 2002, EPA addressed asbestos contamination at the 
vermiculite mine road and disposal areas. EPA also removed contaminated 
material from community ball fields and conducted sampling of area 
residences.
    On May 9, 2002, EPA approved a Removal Action Memorandum Amendment 
for the Libby Asbestos Site, authorizing additional work at known 
locations and sources, including residential contamination in houses 
associated with vermiculite insulation. As of the end of 2006, removal 
activities have been completed at a total of 794 residential and 
commercial properties and more than 400,000 tons of contaminated soil 
and debris have been removed. EPA is also conducting cleanup activities 
in Troy, Montana. A removal action at Troy High School has been 
completed. Removal actions will continue, as needed, to address 
immediate risks before the final remedies are selected and carried out 
at Libby.
    To determine the extent of contamination in Libby from amphibole 
asbestos, EPA established a program to inspect all properties. To date, 
EPA has screened more than 3500 properties in and around Libby for the 
presence of asbestos-containing materials. In addition, EPA, working 
with the Montana Department of Environmental Quality, expects to begin 
the site investigation in Troy by May 2007 to determine which 
properties are contaminated with Libby amphibole asbestos and to fully 
support the field activities needed for the Troy Area Property 
Evaluation (TAPE). EPA plans to conduct property assessments in 2007 
and 2008, totaling 1000 properties. EPA also plans to collect 
additional remedial investigation data from the Export Plant as well as 
the former Stimson Lumber Mill.
           npl listing and development of long-term remedies
    The Governor of Montana requested that the Libby site be listed on 
the Superfund National Priorities List (NPL) pursuant to the 
Comprehensive Environmental Response, Compensation and Liability Act 
(CERCLA), which authorized each state to designate one site for 
inclusion on the NPL. The Libby Asbestos Site (which includes Troy, 
Montana) was added to the NPL in October 2002, authorizing EPA to take 
action to provide long-term protection at Libby through remedial 
actions. To select final remedies that will provide long-term 
protection at the Libby site, EPA must complete a baseline risk 
assessment that includes exposure data and toxicity information.
    To develop additional information about potential exposure to 
amphibole asbestos, EPA will continue (and expand) the Outdoor Ambient 
Air Sampling Program that began last October as well as initiate a 
series of Indoor and Outdoor Activity Based Sampling (ABS) Programs. 
The Activity Based Sampling Programs are designed to evaluate the 
effectiveness of EPA's current property clean up program, and will also 
provide crucial asbestos exposure data needed for a complete baseline 
risk assessment.
    To develop additional information about the toxicity of amphibole 
asbestos, EPA has been working on a toxicological review of noncancer 
effects of amphibole asbestos and a reassessment of the Integrated Risk 
Information System (IRIS) asbestos cancer health assessment.\1\ In 
addition, EPA has been working on an interim methodology to address 
cancer risk estimates for amphibole asbestos.
---------------------------------------------------------------------------
    \1\ IRIS is a database of human health effects that may result from 
exposure to various substances found in the environment. IRIS was 
initially developed by EPA staff to provide consistent information on 
chemical substances.
---------------------------------------------------------------------------
    To ensure that EPA has all the information it needs to support a 
baseline risk assessment for Libby, in January 2007, EPA convened a 
group of more than 30 scientists from EPA, the Agency for Toxic 
Substances and Disease Registry (ATSDR) and the National Toxicology 
Program to identify data gaps and recommend additional studies. The 
meeting was hosted by EPA's National Health and Environmental Effects 
Research Laboratory in Research Triangle Park, North Carolina. The 
scientists also considered information from the Libby Technical 
Assistance Group.
    Based on the recommendations developed from the January 2007 
meeting, the Agency has identified and is implementing a comprehensive 
program of 12 studies to support the development of the Libby toxicity 
assessment and four studies that support important Libby exposure 
assessment analytical needs. (The list of studies is attached to this 
written testimony.) Detailed work plans are currently being developed, 
including consultation with other agencies (e.g., the ATSDR, National 
Institute for Occupational Safety and Health, and the National 
Toxicology Program) and external peer reviews. These studies are 
expected to take 3 years to complete. In the meantime, clean up work at 
the site will continue.
    A definitive schedule for Records of Decision (RODs) at Libby is 
largely dependent on progress made on the exposure assessment and 
toxicity assessment work. However, we anticipate that at some of the 
former processing areas, if exposure pathways have been completely 
addressed, RODs may be completed in a shorter timeframe. EPA's 
tentative schedule will address seven site areas (operable units) 
between 2009 and 2011.
                 december 2006 inspector general report
    In December of 2006, the EPA Office of Inspector General (IG) 
issued a report entitled, ``EPA Needs to Plan and Complete a Toxicity 
Assessment for the Libby Asbestos Cleanup.'' The IG report focused on 
EPA's risk and toxicity assessment efforts associated with the removal 
of Libby amphibole contamination and on two public fact sheets that 
discussed residential exposure issues. In response to that report, EPA 
reaffirmed its intent to carry out all the studies needed to develop a 
long-term cleanup remedy for Libby. That work commenced with the 
January 2007 meeting at EPA's National Health and Environmental Effects 
Research Laboratory, which identified and recommended studies.
    In response to the IG report, EPA also agreed to immediately review 
and revise materials provided to Libby residents regarding the safety 
of living with or handling asbestos. EPA had already discontinued use 
of the fact sheets dealing with what to do if you encounter 
vermiculite, including the fact sheet, ``Living with Vermiculite.'' EPA 
has circulated informational materials for public comment. In addition, 
in early March 2007, EPA initiated a mass mailing of letters to 
property owners in Libby updating them on the current cleanup schedule 
and explaining how cleanup criteria are related to the final baseline 
risk assessment. A town meeting was held on March 7, 2007 (in addition 
to the regular TAG/CAG meetings) to discuss the work needed to develop 
a baseline risk assessment and how EPA plans to incorporate that work 
into the cleanups and assessments currently being conducted in Libby 
and Troy.
                       involvement of w.r. grace
    W.R. Grace, an owner and operator of the vermiculite mine and 
facilities, filed for Chapter 11 bankruptcy protection in April 2001. 
In late 2005, the Ninth Circuit affirmed the District Court's ruling 
that EPA was entitled to approximately $55 million in clean-up costs. 
EPA has incurred more than $100 million in response costs since the 
District Court's ruling. The United States continues to pursue 
reimbursement for Superfund program activities through cost recovery 
actions in the Federal Courts.
                               conclusion
    EPA remains committed to protecting public health and the 
environment by reducing exposure to amphibole asbestos in Libby and 
Troy, Montana. EPA will continue to work closely with our Federal, 
State, and local partners as cleanup efforts progress. The cleanup 
activities in Libby, Montana, have always been an Agency priority and 
will remain one of the Superfund program's top priorities in the years 
ahead.
                                 ______
                                 
                      Libby Superfund Site Studies
                  list of toxicity assessment studies
    EPA Region 8 Libby Amphibole Reference Concentration Development
    NCEA Libby Amphibole Cancer Assessment
    EPA Region 8/USGS Preparation of Libby Testing Material
    EPA Region 8 Fiber Size Distribution in Libby Vermiculite
    NHEERL Dosimetry Model Development. Simulation Studies
    NHEERL In Vitro Dissolution Assays
    NHEERL In Vitro Toxicity Endpoints
    NHEERL Comparative Toxicology in Mice and Rats
    NHEERL Inhalation Toxicology in Rats
    EPA Region 8/NCEA New Epidemiologic Information from Libby Montana 
Cohort
    EPA Region 8/NCEA New Epidemiologic Information from Libby Montana 
Cohort
    NCEA New Epidemiologic Information from Other Cohorts
    OSWER Interim Cancer Risk Methodology
                   list of analytical methods studies
    EPA Region 8 Filter Verification Studies
    EPA Region 8 Low-Level Soil Method Development
    EPA Region 8 Comparison Direct & Indirect Preparations
    EPA Region 8 Ambient Air Collection Method Verification
                                acronyms
    NCEA--EPA National Center for Environmental Assessment
    NHEERL--EPA National Health and Environmental Effects Research 
Laboratory
    OSWER--Office of Solid Waste and Emergency Response

                                ------                                

    Responses from Susan Parker Bodine to Additional Questions from 
                             Senator Baucus
    Question 1. Medical care for people that live in Libby is a top 
priority. People have died in Libby as a result of exposure to 
asbestos, and people continue to suffer serious adverse health effects 
from past exposure. Moreover, the threat of continued illness is ever 
present, since EPA acknowledges that ``[t]he Libby Asbestos Superfund 
site is considered Human Exposure Not Under Control because people can 
be expected to come into contact with'' asbestos.
    Superfund requires the Federal Government to ``in cases of public 
health emergencies caused or believed to be caused by exposure to toxic 
substances, provide medical care and testing to exposed individuals, 
including but not limited to tissue sampling, chromosomal testing where 
appropriate . . . or any other assistance appropriate under the 
circumstances [and that] exposed persons shall be eligible for 
admission to hospitals and other facilities and services operated or 
provided by the Public Health Service'' (emphasis added).
    News reports indicate that EPA was moving to declare a public 
health emergency in 2001, but that concerns raised by the Office of 
Management and Budget and W.R. Grace derailed the declaration. This 
raises grave concerns because of the Federal Government's commitment to 
care for innocent people who are suffering from exposure to asbestos.
    Please provide all EPA records, including any memoranda, letters, 
email, meeting notes, telephone logs or other EPA records related to 
any EPA consideration of declaring a public health emergency at Libby, 
including but not limited to records that describe or relate to:
    1. Any involvement of the Office of Management and Budget in the 
process of considering whether to declare a public health emergency in 
Libby,
    2. Any involvement of any other Federal Agency in the process of 
considering whether to declare a public health emergency in Libby,
    3. Any involvement of W.R. Grace, including any entity with any 
financial, corporate, or other business relationship to W.R. Grace, in 
the process of considering whether to declare a public health emergency 
in Libby, and
    4. Any involvement of any law firm in the process of considering 
whether to declare a public health emergency in Libby.
    Response. Because of the potentially large number of documents 
responsive to this request and the need to search multiple U.S. 
Environmental Protection Agency (EPA) offices, EPA is unable to respond 
to this document request at this time. We expect to provide a further 
response concerning this request for documents by August 31, 2007. 
However, the attached letter from Julie Gerberding, Administrator for 
the Agency of Toxic Substances and Disease Registry, is relevant to 
your request.

    Question 2. List and describe all instances where EPA has declared 
a public health emergency related to the release of a hazardous 
substance. Please provide all EPA records, including any memoranda, 
letters, email, meeting notes, telephone logs or other EPA records 
related to any EPA decision to declare a public health emergency.
    Response. Section 104(a)(3) limits EPA's response authority for a 
release or threat of a release. There is an exception to the limitation 
related to public health emergencies. There are two provisions in 
CERCLA concerning public health emergencies:
    1. Section 104(a)(4) authorizes EPA to respond to, among other 
things, releases from products which are part of the structure of, and 
result in exposure within, residential buildings or business or 
community structures--if EPA determines that a release or threatened 
release constitutes a public health or environmental emergency and no 
other person with the authority and capability to respond to the 
emergency will do so in a timely manner; and
    2. Section 104(i) outlines the Agency for Toxic Substances and 
Disease Registry's (ATSDR) health related authorities under CERCLA. 
Section 104(i)(1)(D) outlines ATSDR's medical care and testing 
authorities under CERCLA in cases of a public health emergency.
    EPA has never made a determination that a public health or 
environmental emergency exists to invoke CERCLA's exception to the 
limits on response under Section 104(a)(3).

    Question 3. Please describe the process and criteria that EPA uses 
to determine whether to declare a public health emergency. Please 
include any draft, interim or final records that EPA may rely on to:
    1. Undertake the process of determining whether to declare a public 
health emergency, and
    2. Declare a public health emergency.
    Response. The National Oil and Hazardous Substances Pollution 
Contingency Plan (NCP) provides the process that EPA uses for 
implementing CERCLA. Section 300.400(b) of the NCP implements CERCLA 
104 (a)(4) which authorizes EPA to respond to releases from, among 
other things, products which are part of the structures of, and result 
in exposure within, residential building or community structures--if 
EPA determines that the release constitutes a public health or 
environmental emergency and no other person with the authority and 
capability to respond to the emergency will do so in a timely manner. 
Response actions are selected under CERCLA section 104(a) and (c).
    Please note that under Executive Order 12580, the authority under 
section 104(b) to investigate and gather information to determine 
whether illness, disease, or complaints thereof may be attributable to 
a release of a hazardous substance, pollutant or contaminant is 
delegated to the Secretary of Health and Human Services (HHS), not EPA. 
EPA consults closely with HHS and in particular the Agency for Toxic 
Substances and Disease Registry (ATSDR) on health related issues under 
CERCLA. There are provisions for health assessments and public health 
threat evaluations by ATSDR in the NCP (e.g., Section 300.410 ``Removal 
Site Evaluation'') and references to the role of HHS in addressing 
public health emergencies during response operations (Section 
300.135(h)). In addition, NCP Section 300.175(b)(8)(i) includes a 
provision that describes ATSDR's role in preparedness planning and 
response.

    Question 4. A 2003 report by ATSDR recommended the need for 
``toxicological investigations of the risks associated with low-level 
exposure to asbestos, especially Libby asbestos.'' According to the 
2006 Inspector General report, EPA scientists requested the toxicity 
study, but EPA's budget office did not approve their request.
    Please provide all EPA records, including any memoranda, letters, 
email, meeting notes, telephone logs or other EPA records related to 
any EPA consideration of conducting toxicological studies of Libby 
asbestos, including but not limited to records that describe or relate 
to:
    1. Any involvement of the Office of Management and Budget in the 
process of considering whether to conduct toxicological studies of 
Libby asbestos,
    2. Any involvement of any other Federal Agency in the process of 
considering whether to conduct toxicological studies.
    3. Any involvement of W.R. Grace, including any entity with any 
financial, corporate, or other business relationship to W.R. Grace, in 
the process of considering whether to conduct toxicological studies,
    4. Any involvement of any law firm in the process of considering 
whether to conduct toxicological studies.
    Response. Because of the potentially large number of documents 
responsive to this request and the need to search multiple U.S. 
Environmental Protection Agency (EPA) offices, EPA is unable to respond 
to this document request at this time. We expect to provide a further 
response concerning this request for documents by August 31, 2007.

    Question 5. In a letter dated December 8, 2006, EPA stated it would 
begin toxicological studies of Libby asbestos. Please provide me with 
EPA's operating plan and budget for the toxicity studies in FY2007 as 
the funding needs and timeline for fully completing all toxicity 
studies.
    Response. To ensure that EPA has all the information it needs to 
support a baseline risk assessment for Libby, in January 2007, EPA 
convened a group of more than 30 scientists from EPA, the Agency for 
Toxic Substances and Disease Registry (ATSDR) and the National 
Toxicology Program to identify data gaps and recommend additional 
studies. The meeting was hosted by EPA's ORD National Health and 
Environmental Effects Research Laboratory (NHEERL) in Research Triangle 
Park, North Carolina. The scientists also considered information from 
the Libby Technical Assistance Group.
    Based on the recommendations developed from the January 2007 
meeting, the EPA has identified and is implementing a comprehensive 
program of 12 studies to support the Libby risk assessment. The 
description of these studies and a timeline for funding are attached. 
Detailed work plans are currently being developed and will include 
consultation with other agencies (e.g., the ATSDR, National Institute 
for Occupational Safety and Health (NIOSH), and the National Toxicology 
Program (NTP) and external peer reviews.
    The studies are anticipated to be completed by September 30, 2009; 
however, this date is tentative pending the completion of the detailed 
work plans. Results from the studies will be used to complete the 
baseline risk assessment, including the comprehensive toxicity 
assessment, by September 30, 2010.
    The Office of Solid Waste and Emergency Response approved a budget 
of $2,649,250 in fiscal year 2007 for the Libby Action Plan. With 
recent adjustments due to detailed plans of several analytical studies, 
the actual fiscal year budget is $2,581,750 as of May 31, 2007. 
Additional funding is anticipated in fiscal years 2008 and 2009.
    Enclosure 3 provides the status and anticipated funding needs for 
the various studies. EPA intends to provide monthly updates to this 
information, as requested by Senator Baucus during the field hearing.

[GRAPHIC] [TIFF OMITTED] 55925.003

[GRAPHIC] [TIFF OMITTED] 55925.004

[GRAPHIC] [TIFF OMITTED] 55925.005

[GRAPHIC] [TIFF OMITTED] 55925.006

[GRAPHIC] [TIFF OMITTED] 55925.007

[GRAPHIC] [TIFF OMITTED] 555925.010

[GRAPHIC] [TIFF OMITTED] 55925.011

[GRAPHIC] [TIFF OMITTED] 55925.012

[GRAPHIC] [TIFF OMITTED] 55925.013

[GRAPHIC] [TIFF OMITTED] 55925.014

[GRAPHIC] [TIFF OMITTED] 55925.015

[GRAPHIC] [TIFF OMITTED] 55925.016

[GRAPHIC] [TIFF OMITTED] 55925.017

[GRAPHIC] [TIFF OMITTED] 55925.018

[GRAPHIC] [TIFF OMITTED] 55925.019

[GRAPHIC] [TIFF OMITTED] 55925.020

[GRAPHIC] [TIFF OMITTED] 55925.021

[GRAPHIC] [TIFF OMITTED] 55925.022

[GRAPHIC] [TIFF OMITTED] 55925.023

[GRAPHIC] [TIFF OMITTED] 55925.024

[GRAPHIC] [TIFF OMITTED] 55925.025

[GRAPHIC] [TIFF OMITTED] 55925.026

[GRAPHIC] [TIFF OMITTED] 55925.027

[GRAPHIC] [TIFF OMITTED] 55925.028

[GRAPHIC] [TIFF OMITTED] 55925.029

[GRAPHIC] [TIFF OMITTED] 55925.030

[GRAPHIC] [TIFF OMITTED] 55925.031

[GRAPHIC] [TIFF OMITTED] 55925.032

[GRAPHIC] [TIFF OMITTED] 55925.033

[GRAPHIC] [TIFF OMITTED] 55925.034

[GRAPHIC] [TIFF OMITTED] 55925.035

[GRAPHIC] [TIFF OMITTED] 55925.036

[GRAPHIC] [TIFF OMITTED] 55925.037

[GRAPHIC] [TIFF OMITTED] 55925.038

[GRAPHIC] [TIFF OMITTED] 55925.039

[GRAPHIC] [TIFF OMITTED] 55925.040

[GRAPHIC] [TIFF OMITTED] 55925.041

[GRAPHIC] [TIFF OMITTED] 55925.042

[GRAPHIC] [TIFF OMITTED] 55925.043

[GRAPHIC] [TIFF OMITTED] 55925.044

[GRAPHIC] [TIFF OMITTED] 55925.045

[GRAPHIC] [TIFF OMITTED] 55925.046

[GRAPHIC] [TIFF OMITTED] 55925.047

[GRAPHIC] [TIFF OMITTED] 55925.048

[GRAPHIC] [TIFF OMITTED] 55925.049

[GRAPHIC] [TIFF OMITTED] 55925.050

[GRAPHIC] [TIFF OMITTED] 55925.051

[GRAPHIC] [TIFF OMITTED] 55925.052

[GRAPHIC] [TIFF OMITTED] 55925.053

[GRAPHIC] [TIFF OMITTED] 55925.054

[GRAPHIC] [TIFF OMITTED] 55925.055

[GRAPHIC] [TIFF OMITTED] 55925.056

[GRAPHIC] [TIFF OMITTED] 55925.057

[GRAPHIC] [TIFF OMITTED] 55925.058

[GRAPHIC] [TIFF OMITTED] 55925.059

[GRAPHIC] [TIFF OMITTED] 55925.060

[GRAPHIC] [TIFF OMITTED] 55925.061

[GRAPHIC] [TIFF OMITTED] 55925.062

[GRAPHIC] [TIFF OMITTED] 55925.063

[GRAPHIC] [TIFF OMITTED] 55925.064

[GRAPHIC] [TIFF OMITTED] 55925.065

[GRAPHIC] [TIFF OMITTED] 55925.066

[GRAPHIC] [TIFF OMITTED] 55925.067

[GRAPHIC] [TIFF OMITTED] 55925.068

[GRAPHIC] [TIFF OMITTED] 55925.069

[GRAPHIC] [TIFF OMITTED] 55925.070

[GRAPHIC] [TIFF OMITTED] 55925.071

[GRAPHIC] [TIFF OMITTED] 55925.072

[GRAPHIC] [TIFF OMITTED] 55925.073

[GRAPHIC] [TIFF OMITTED] 55925.074

[GRAPHIC] [TIFF OMITTED] 55925.075

[GRAPHIC] [TIFF OMITTED] 55925.076

[GRAPHIC] [TIFF OMITTED] 55925.077

[GRAPHIC] [TIFF OMITTED] 55925.078

[GRAPHIC] [TIFF OMITTED] 55925.079

[GRAPHIC] [TIFF OMITTED] 55925.080

[GRAPHIC] [TIFF OMITTED] 55925.081

[GRAPHIC] [TIFF OMITTED] 55925.082

[GRAPHIC] [TIFF OMITTED] 55925.083

[GRAPHIC] [TIFF OMITTED] 55925.084

[GRAPHIC] [TIFF OMITTED] 55925.085

[GRAPHIC] [TIFF OMITTED] 55925.086

    Senator Baucus. Thank you, Ms. Bodine, very, very much. 
Thank you.
    Is it true that--refresh your recollection here--that in 
2003 the report by the Agency for Toxic Substances and Disease 
Registry, ATSDR, recommended a need for, ``toxicological 
investigations of the risks associated with low-level exposure 
to asbestos, especially Libby asbestos''? Is it also true that 
the report stated that, ``The exact level of risk cannot be 
determined due to uncertainties in the analysis and toxicology 
of Libby asbestos''? Do you remember that report?
    Ms. Bodine. I don't have it right in front of me. Yes, I 
believe that's--that is my recollection of what that report 
says, yes.
    Senator Baucus. Right. Is it also true that, in 2006, 
inspector general report, the--according to the inspector 
general report in 2006, EPA's own scientists requested a 
toxicity study, but EPA's budget office did not approve their 
request?
    Ms. Bodine. I read that in the inspector general's report. 
That's the information I have about that.
    Senator Baucus. So your only knowledge is based on what you 
read in the inspector general report?
    Ms. Bodine. I was not here in--I was not an EPA employee in 
2003, so I'm not personally familiar with that.
    Senator Baucus. I'm talking about 2006.
    Ms. Bodine. You're talking about the report in----
    Senator Baucus. According to the inspector general's 
report, EPA scientists requested a toxicity study, but EPA's 
budget office did not approve their request. Why would--if 
EPA's own scientist requested a toxicity study, along the lines 
of ATSDR recommendation, why in the world would the EPA not 
follow through and do that study, or, stated differently, why 
would EPA's own budget turn that down?
    Ms. Bodine. It's my understanding that--again, that this 
was--this wasn't a request that was made in 2006. But it's my 
understanding that the decision at the time was to focus on the 
removals and addressing immediate risks by removing asbestos-
contaminated material and that there was a team at EPA that was 
looking at asbestos issues as a national issue and was 
developing a whole series of studies to then examine and study 
this asbestos-toxicity issue more broadly. Because of that, 
there was not, at that time, a Libby-specific study.
    Senator Baucus. Is a toxicity study necessary to do a 
baseline risk assessment?
    Ms. Bodine. To do a risk assessment, you have to understand 
both exposure and toxicity.
    Senator Baucus. It's a necessary component?
    Ms. Bodine. So if we don't have--generally we, in the 
Office of Solid Waste and Emergency Response, use the toxicity 
numbers that have been developed by the ORD, the Office of 
Research and Development. These are called IRIS numbers. So 
generally we have existing toxicity numbers that we're able to 
use, and then what we generally do is determine what the 
exposure is and apply the toxicity number. The problem is that 
the cancer toxicity number that the Agency has is based on 
chrysotile, and, as we've all learned, the amphibole at Libby 
is very different.
    Senator Baucus. That's correct. That's all the more reason 
why it's so curious that the EPA didn't follow its own 
scientists' recommendations and do a toxicity analysis.
    Ms. Bodine. The noncancer toxicity assessment, using 
specifically the amphibole, has been underway for a while. With 
respect to the cancer toxicity numbers, the work that is very 
far along is work that's been developed to be able to use the 
existing toxicity numbers and then adjust those numbers 
downward based on studies--epidemiological studies.
    Now, going forward, what we did was get the recommendations 
of scientists, both within EPA and other agencies, and got the 
recommendations.
    Senator Baucus. Put this all in context. Some time ago we 
got word, frankly, from some technical people at the EPA that 
EPA was dragging its heels, was cutting corners, on any 
potential toxicity analysis, just wasn't doing the job. So I 
requested--wrote a letter to the inspector general to look into 
this and see whether, in fact, the EPA was doing what its own 
scientists said it should be doing, and which ATSDR also 
suggested that has to be done in order to do risk assessment. 
The IG's report concluded, as you all know, end of last year, 
that, yeah, they're not doing the job; they need toxicity 
analysis, as we suspected was the case. The inspector general's 
conclusion was the EPA was not doing analysis. I don't want to 
belabor the point, but, as you said, we need a toxicity 
analysis as one of the conditions to get the job done here. It 
very much looks like the EPA has been cutting corners, that 
it's not doing it right the first time; it didn't make the 
budget request. I'm a little bit surprised that you didn't know 
about all that. It seems to me, if you're the Assistant 
Administrator in charge of Superfund, I would expect that you 
would know; the bucks stops, you know, with you, and the 
Administrator, but certainly the Superfund stops with you.
    I'm just quite put out, frankly. Here it is, it's been 7 
years, and EPA has been putting in a lot of work, a lot of 
cleanup has been good. It feels like, due to budget reasons, 
EPA was trying to get away with something by cutting corners 
and frankly was caught. Caught by the IG, inspector general. 
I'm just wondering--history is history, but that's my analysis 
of what happened. The real question now is how to move forward 
and get this all done as quickly as we possibly can.
    You say it takes 3 years now to do this analysis. I have 
several questions about that. My Lord, why didn't you start 
this 3 years ago instead of right now? What can we do to speed 
up this analysis? I'm also wondering what your budget is? How 
many dollars are you allocating to this and over how many 
years? How much are you spending on this each year in the 3 
years to get it done?
    Ms. Bodine. I don't have a 3-year breakdown, but we have on 
the toxicity--the 12 toxicity studies--or the studies that are 
feeding into developing the toxicity number, we have a budget 
that's been developed by the scientists that are working on it. 
They're currently developing more detailed study plans. But for 
the 12 studies, the total cost is about $4.5 million.
    Senator Baucus. Four and a half million for the toxicity 
analysis. That includes the 12?
    Ms. Bodine. The 12 studies, yes.
    Senator Baucus. But you also, in that paragraph in your 
statement, talk about four other studies.
    Ms. Bodine. Those are another $1.68 million. Those are the 
methods--making sure that our analytical methods that we're 
using here at Libby are good enough to detect to asbestos here.
    Senator Baucus. What's the total request, the total----
    Ms. Bodine. The total funding for the 12 studies plus the 
four studies, the estimate is about $6.2 million.
    Senator Baucus. It's going to cost about $6.2 million to do 
the toxicity analysis; is that correct?
    Ms. Bodine. Well, the toxicity analysis is really the $4.5 
million. The other is the--the analytical methods are making 
sure--it's data testing, making sure our data is good. These 
are all studies that are going to support developing a final 
number, as is the continuing work on the exposure side, that's 
also work that----
    Senator Baucus. Is that--sorry.
    Ms. Bodine. Go ahead.
    Senator Baucus. Go ahead.
    Ms. Bodine. All the work that we've done to date on 
remedial investigation, all the work we're continuing to do, 
that helps us know what the exposure levels are. The activity-
based-sampling work that we're going to be doing this year, 
that's going to help us know what the exposures are. Then you 
take the exposure data and you apply it to the toxicity number 
to come up with an estimate of risk.
    Senator Baucus. Is that amount budgeted? Is that locked in, 
those dollar amounts, you know where you're going to spend it? 
Is that a wish list? Or what's the status of that request?
    Ms. Bodine. We're committed to doing all that work.
    Senator Baucus. You're going to do it, period?
    Ms. Bodine. Yes.
    Senator Baucus. Over 3 years?
    Ms. Bodine. Over 3 years I know we're doing all the 
studies. The activity-based sampling is not going to take 
years, but yes, we are going to be doing all that.
    Senator Baucus. Do you need to do the toxicity--must that 
be completed before you can do a baseline risk study?
    Ms. Bodine. To do a baseline risk assessment, yes.
    Senator Baucus. That's necessary to tell the people of 
Libby how clean clean is?
    Ms. Bodine. Correct.
    Senator Baucus. Is there a way to speed up that 3 years?
    Ms. Bodine. I don't believe there is, because some of--
there's a sequence. Because remember these studies--some of the 
studies are done to then support--to have information that 
feeds into other studies. So we have a sequence of studies laid 
out and timelines for when they start and when they're 
completed. So because some things have to happen before other 
things happen, I'm not aware that there are opportunities to 
speed it up.
    Senator Baucus. More resources, more money was spent?
    Ms. Bodine. We identified the list of studies based on what 
the scientists told us from the meeting down in Research 
Triangle Park and have agreed--we have agreed that this is the 
list of studies that we're going to do based on the scientific 
recommendation, and that's what we're going to do. We have a 
cost estimate for that. It may be more, but we're going to do 
them anyway.
    Senator Baucus. Would it make sense or not make sense for 
you to go back and talk to them and see if there's a way to do 
it more quickly, again if more resources--I want----
    Ms. Bodine. I understand that. I'd be happy to go back and 
ask the scientists again. We have a Gantt chart that is 
sequencing them, but I will definitely ask your question and 
get back to you.
    Senator Baucus. Could you, you know, because we want to 
help; we want to get this done and do whatever it takes to get 
it done. I'm just curious though: Why wasn't this requested 
earlier? I get this funny feeling it was--you went down to 
Research Triangle and other places only because, frankly, of 
the IG report. That's probably because I asked for that report 
and the IG looked into the EPA, and EPA is going to--not to 
chastise you--at least said yeah, this has to be done. So why 
has this taken such a long time to get started?
    Ms. Bodine. There was work underway already on developing 
the toxicity number for Libby amphibole specifically. Again, on 
the noncancer risk, that work is well underway and is using 
data from a cohort of workers out of Marysville, OH. They 
worked at one of the processing plants there, and they have 
data from those people that they can use to develop a noncancer 
risk.
    On the cancer side, we had two things going on. One was a 
methodology to use EPA's existing number and translate it into 
a Libby-specific number. In addition, the Office of Research 
and Development has started a cancer study as well also using 
Libby amphibole. I don't know why things weren't started 
faster, other than to know that, given the situation at Libby 
and given the magnitude of exposure, that, when you have that 
situation, we go in and we do--we take emergency action. We 
don't stop and do a study. EPA goes in and removes the 
contaminated material to get the risk down as low as possible 
as quickly as possible.
    Senator Baucus. History is history, but we can only deal 
with the present and future. Let us know what needs to be done. 
I'd also like EPA to send me a report, month-end status, 
monthly reports.
    Ms. Bodine. On the status of the studies?
    Senator Baucus. The toxicity studies, with a word or two in 
there of what could or should be done to speed this up. Would 
you do that, please?
    Ms. Bodine. Yes.
    Senator Baucus. Great. I appreciate that.
    I recall a question about a number of response-level 
cleanups. Year before last, there were 225 emergency-response 
cleanups and the following year there were 16. I've been told 
that the EPA plans to complete 135 this year. I'm curious why 
the lower number.
    Ms. Bodine. I've been told 160.
    Senator Baucus. I mean 160. I misspoke.
    Ms. Bodine. The properties that we're doing this year are 
larger and more complex than some of the properties we've done 
in the past. So the removal--when I talked to you before, you 
know, the removal action work is continuing while we're doing 
the additional sampling work and the additional studies, but 
because these properties are larger and more complex, there are 
fewer of them.
    Senator Baucus. Again, I'm just trying to move things along 
here.
    Ms. Bodine. I understand that.
    Senator Baucus. Next, what cancer-risk level does EPA use 
to determine the Agency will conduct an emergency cleanup of a 
home in Libby or in Troy?
    Ms. Bodine. We have screening criteria that we have been 
using. We have a clearance number that is based on a variety of 
things, including whether we can detect the asbestos fibers on 
surfaces, whether we--if we know that there's asbestos 
insulation in the attic, we'll take action. So we have a number 
of triggers for taking the emergency action. It's--we have a 
document that lays out what the action levels are.
    Senator Baucus. Well, is it true the EPA normally protects 
people to a--generally the extent of one person in 1 million 
have an increased risk of getting cancer? Is that the general 
rule? Although EPA may go as low as 1 person in 10,000 in some 
cases. Whereas, here in Libby, according to EPA's 2003 draft 
final document, the risk is much greater, much higher; that is, 
1 person in 100; 1 person in 1,000, which is kind of scary on 
the surface. Very unfavorably with the EPA's norm.
    Ms. Bodine. Right. The risk range that you are identifying 
as the 1 in 10,000 to one in a million excess-cancer-risk range 
is a range that's used for remedial action for final cleanup 
action. For a removal action, which is not intended to be a 
permanent remedy, we have lower numbers. Then you go back and 
determine if more work needs to be done.
    Senator Baucus. Right.
    Ms. Bodine. That's not a final cleanup number.
    Senator Baucus. You're implying therefore, or are you, that 
when it's permanent, then you're up to 1 in 1 million risk of 
cancer?
    Ms. Bodine. The Agency--and it's in the National 
Contingency Plan, which are regulations for Superfund--uses a 
range, and that's as you identified, between 1 in 10,000 and 
one and a million. Then it's site specific where the range----
    Senator Baucus. The main point being we're a little 
concerned here in Libby if your risk is a much greater risk of 
cancer, between 1 in 100 to 1 in 1,000. You say it's temporary; 
it's not permanent. So we have to ask the question: Why 
shouldn't our risk of protection be the norm, which I 
understand to be between 1 and 1 million and 1 in 10,000, which 
is much more protected than what's happening here in Libby?
    Ms. Bodine. That's, again, the difference between the 
emergency removals and the final-removal action.
    Senator Baucus. What level in the final?
    Ms. Bodine. We will be in the risk range. I don't know what 
the final number will be. But we'll be informed by the toxicity 
studies and the exposure numbers and then----
    Senator Baucus. But the standard normal----
    Ms. Bodine. Is the range.
    Senator Baucus. The range is between 1 and 10,000----
    Ms. Bodine. One in a million.
    Senator Baucus. So we expect to be within the range, at the 
very least, on the final?
    Ms. Bodine. Yes.
    Senator Baucus. Good. Couple questions about funding. Basic 
questions, Ms. Bodine. If the Agency had more money over the 
last few years, could the Agency have done more work to 
investigate and clean up asbestos? If you had more in the past, 
would you have done more? That's the basic question.
    Ms. Bodine. Libby, as I said, is one of our highest 
priorities. It is--when you talk about the national program, we 
have all of our sites, it is getting more appropriated money 
than any other site. If we had--if there was more money 
dedicated to Libby, up to a certain point, yes, more work could 
be done. The point is--there's not endless capacity to do 
additional work. They are doing--during the construction 
season, the team here is cleaning up about a house a day, which 
is very--a very high rate of activity. But I would expect 
that--again, I wouldn't know how much, but I would expect some 
more to be done.
    Senator Baucus. I only ask because there's an EPA document 
which discussed the 2005 funding for Libby cleanup which 
answered that same question. ``Yes, additional funding of 2 
million per year will allow cleanup of approximately 50 
additional homes per year, which reduced the estimate duration 
of the cleanup by approximately 1 or 2 years.'' I don't know if 
you're familiar with the EPA document.
    Ms. Bodine. I'm not familiar with it.
    Senator Baucus. Does that sound reasonable?
    Ms. Bodine. Two million for----
    Senator Baucus. Two million more per year would allow 
cleanup of 50 additional homes a year, which would reduce the 
estimated duration of the cleanup by approximately 1\1/2\ 
years. That's a quote.
    Ms. Bodine. I would have to ask the staff that's actually--
--
    Senator Baucus. Does that sound reasonable?
    Ms. Bodine. It sounds reasonable off the top of my head. I 
would have to ask the folks who actually do the work whether 
that's accurate.
    Senator Baucus. Sure. My office just handed me the 
document. Here it is. So we'll pass it on to you.
    Ms. Bodine. Thank you.
    Senator Baucus. I'm just curious. Why hasn't EPA asked 
Congress for money to clean up asbestos to protect folks in 
Libby? Why haven't you asked for more money?
    Ms. Bodine. We develop our budget based on what we see as 
the needs for the Superfund program nationally, and then 
after--then we allocate the funding that we receive among the 
sites that have ongoing construction.
    Senator Baucus. That's the process?
    Ms. Bodine. Right, that's the process.
    Senator Baucus. Why not ask for more? Your own documents 
say 2 million more we could move this thing along a lot faster. 
Why don't you ask for more?
    Ms. Bodine. What I was trying to explain when I was 
answering your question is we don't ask for funding based on 
each individual site. We ask for funding based on what we 
expect to be the needs for the national program when we do our 
budget request. The actual determination for each site is made 
later after we know what our budget is as part of our work-
planning process. The funding that we already know we have that 
we received from Congress, we then allocate out.
    Senator Baucus. In fact, the EPA asked for 7 million less 
for Superfund cleanups for 2008 than in the preceding year. Not 
only did you not ask for more, you asked for 7 million less. I 
might say the Senate recently rejected the proposed cuts to the 
EPA for the Superfund program and authorized an additional of 
more than 200 million to clean up toxic-waste sites. It's a bit 
difficult for us to work together in a partnership when EPA 
wants to cut.
    Ms. Bodine. The entire Superfund budget funds a variety of 
different programs and offices. Within our remedial action 
funding, we did increase that amount in 2008. But overall, your 
numbers are correct. Overall the dollar amounts went down. It 
didn't come out of the remedial action funding.
    Senator Baucus. Can you tell us a little bit about the Troy 
cleanup, timeline for Troy.
    Ms. Bodine. In 2007 and 2008, we are going to be doing the 
assessment of properties there, and then we'll take that data 
to determine whether we need to do the removals there. Much 
like we did in Libby.
    Senator Baucus. All right. The bottom line here is we have 
a problem, we need a solution, and it seems to me that most 
solutions occur when people work together, but also when both, 
in good faith, want to get the job done very quickly. I just 
encourage you very, very strongly to ask for more money. You 
see the need here. I mean it's great. It's been 7 years now. 
You're new to the job, but that's irrelevant.
    Ms. Bodine. That's correct.
    Senator Baucus. You're the person; you're responsible; 
you're the top administrator, basically, of this particular 
program. So I urge you to be very, very vigorous in asking for 
more money so you can get the job done. In the meantime, I want 
to work with you and help provide the resources necessary to 
get the job done. We're going to get monthly reports now on the 
toxicity, and I would appreciate it if you also let us know 
whatever you want. I have a telephone. And question: What do 
you think we could do together to get this problem solved more 
quickly?
    Ms. Bodine. I want to thank you for inviting me here, 
because I completely agree that it's very important for people 
to come here and listen to the community and see for 
themselves, first of all, what a beautiful place this is, but 
second what an unbelievable situation there is here.
    Senator Baucus. You have some great people. I see Paul over 
here. I worked with Paul beginning about 2000. I may be 
speaking out of place here, but my impression is that the 
people of Libby really appreciate Paul's work. He's a 
dedicated, hardworking guy. Unfortunately, he left town after 2 
years of working here, but he's back. They're clapping because 
he's back. Libby likes Paul.
    Ms. Bodine. I know.
    Senator Baucus. We just--you can take a lot of cues from 
Paul. I suggest you just do whatever Paul wants. I think that's 
a good note to end on. Thank you. Otherwise, Ms. Bodine, 
anything else you want to say?
    Ms. Bodine. No. Thank you very much.
    Senator Baucus. Thank you very much.
    Next we have Marianne. (Brief interruption.)

 STATEMENT OF MARIANNE B. ROOSE, COMMISSIONER, BOARD OF COUNTY 
               COMMISSIONERS, LINCOLN COUNTY, MT

    Ms. Roose. Thank you, Senator Baucus, and other committee 
members for allowing me this time today to testify at your 
hearing on behalf of the Lincoln County Board of Commissioners. 
We are grateful to Congress and especially to you, Senator 
Baucus, for following through on your commitment to the 
asbestos victims of Libby and Troy and addressing the issues of 
concern. We are very grateful for your sincerity, and it is 
appreciated by all of us. I would like to offer my testimony by 
answering three questions that we believe would be informative 
for this hearing.
    No. 1, what issues are we facing? The main issue that our 
communities are still facing and of which there is still no 
answer is, how clean is clean? When this cleanup process was 
first started, there was a lot of discussion whether the air is 
safe to breathe in Libby and what is a safe level of asbestos. 
After 7 years into the cleanup process, there is still no 
definitive answer. Homes are being cleaned now, but the 
asbestos is being left in the walls. Previously it was felt 
that this was safe as long as it was not disturbed. That is now 
being questioned by both the public and the EPA itself. There 
is a possibility that the EPA may have to go back in and 
reclean homes that have already been cleaned. Six years into 
this project it was determined that more air testing has to be 
done to determine if the air is safe here, even though 
originally we were assured that it was. That testing will take 
another year to complete while all the time we still have that 
question hanging over our head. This leads to rumors, anxiety, 
and general distrust of the work that has been completed to 
date.
    No. 2, what has the uncertainty regarding the cleanup cost 
our communities? The uncertainty of not knowing what a safe 
level of asbestos is and is the air in Libby safe to breathe 
continues to be on the forefront of visitors, organizers of 
community events, and people looking to relocate to Libby.
    Some recent examples include a reduction in participation 
for our annual Nordic Fjord horseshow. Some participants have 
declined coming because they are uncertain if the air is safe 
and whether the soil in the arena area poses an unsafe 
condition for their horses. Even though we have reassured them 
that it is safe, the uncertainty of knowing for sure has led to 
cancellation of participants. Another example is the 
recruitment efforts at St. John's Hospital. We have been told 
that there have been several doctors that would have liked to 
relocate here due to our area of beauty and lifestyle but are 
uncertain whether it is safe to raise their children here. 
There are many more examples of these types of public 
uncertainty that keep hanging over our head.
    No. 3, what can and should EPA do to address the 
communities' needs? First let me say that we think the EPA is 
doing a good job with the cleanup efforts in Libby. It has been 
a process of learning as we go. When problems have occurred in 
the past, EPA has been very receptive to changing their 
practices or procedures to address those. They continue to 
listen to the public and to our concerns and adjust programs to 
better serve our communities.
    There are some things that we think can be done to help 
improve conditions in Libby and also let the world know that 
Libby is a safe place to visit or live. Thought should be given 
to demolishing homes with reimbursement given to the owners for 
homes when the cost of cleanup is substantially more than the 
value of the house being cleaned. Considering Senator Baucus 
has recently directed Fannie Mae to work with Libby and our 
other communities for affordable housing, there may be a 
plausible solution that the Federal Agencies working together 
could identify that would benefit both the homeowners and the 
Government. It seems that it may be more of a taxpayer 
advantage to have EPA review the cost-effectiveness of cleanup 
compared to demolition and at the same time be able to offer 
low-interest loans to these homeowners through the Fannie Mae. 
Troy residents are concerned that cleanup efforts have been 
delayed in their community. We hope that the effort in Troy 
remains on schedule for starting the project this spring and is 
not delayed.
    Another community need is a research center with a clinical 
site that would be able to treat our resident victims locally 
with the latest available means. It seems very logical to us 
that research and treatment should be done where the source of 
contamination is heaviest. We encourage continued support of 
the Libby CARD Clinic and its future efforts to establish a 
research clinic in Libby, MT.
    Also our local emergency-service organizations, especially 
our fire departments, need additional protective equipment to 
be able to respond to emergencies in contaminated homes. It is 
unfair to ask volunteers to respond to these emergencies and 
put themselves and their families at risk without appropriate 
protective equipment and clothing.
    After air-quality testing and other testing is completed, 
we also need substantial media coverage outside of the area to 
let everyone know that Libby is a safe place to visit, raise 
your kids, or to retire here. The current stigma of unsafe 
attached to Libby needs to be overcome so that we can continue 
to improve our economy, have families look at us as a great 
place to live, and be able to get our pride back as a 
community.
    I want to thank all of you for your time today and extend a 
very specific thanks to Senator Baucus for remaining concerned 
about Libby and our future. Thank you, Max.
     Statement of Marianne B. Roose, Commissioner, Board of County 
                   Commissioners, Lincoln County, MT
    Thank you Senator Baucus and other Committee Members for allowing 
me this time today to testify at this hearing on behalf of the Lincoln 
County Board of Commissioners.
    We are very grateful that Congress, and especially Senator Baucus, 
is following through on their commitment to address the asbestos issues 
affecting Libby and Troy in southern Lincoln County. Your sincerity is 
greatly appreciated by all of us.
    I would like to offer my testimony today by answering three 
questions that I believe would be informative for this hearing.
    1. What issues are we facing? The main issue that our communities 
are still facing and of which there is still no answer is ``How clean 
is clean?'' When this cleanup process was first started, there was a 
lot of discussion whether the air is safe to breathe in Libby and what 
is a safe level of asbestos. After 7 years into the clean-up process, 
there is still no definitive answer. Homes are being cleaned now but 
the asbestos is being left in the walls. Previously, it was felt that 
this was safe as long as it was not disturbed. That is now being 
questioned by both the public and EPA itself. There is a possibility 
that the EPA may have to go back in and re-clean homes that have 
already been cleaned. Six years into the project, it was determined 
that more air testing has to be done to determine if the air is safe 
here even though originally we were assured it was. That testing will 
take another year to complete while all the time we still have that 
question hanging over our head. This leads to rumors, anxiety, and 
general distrust of the work that has been completed to date.
    2. What has the uncertainty regarding the clean-up cost the 
community? The uncertainty of not knowing what a safe level of asbestos 
is and is the air in Libby safe to breathe continues to be on the 
forefront of visitors, organizers of community events, and people 
looking to relocate to Libby.
    Some recent examples include a reduction in participation for our 
annual Nordic Fjord horse show. Some participants have declined coming 
because they are uncertain if the air is safe and whether the soil in 
the arena area poses an unsafe condition for their horses. Even though 
we have reassured them that it is safe, the uncertainty of knowing for 
sure has led to cancellations of participants. Another example is the 
recruitment efforts at St. Johns Hospital. We have been told that there 
have been several doctors that would have liked to relocate here due to 
our area beauty and lifestyle but are uncertain whether it is safe to 
raise their children here. There are many more examples of these types 
of public uncertainty that keep hanging over our head.
    3. What can/should EPA do to address the communities' needs? First 
let me say that we think the EPA is doing a very good job with their 
clean-up efforts in Libby. It has been a process of learning as we go. 
When problems have occurred in the past, EPA has been receptive to 
changing their practices or procedures to address those. They continue 
to listen to the public and to our concerns and adjust programs to 
better serve our communities.
    There are some things that we think can be done to help improve 
conditions in Libby and also let the ``world'' know that Libby is a 
safe place to live or visit.
    Thought should be given to demolishing homes, with reimbursement 
given to the owners, for homes where the cost of clean-up is 
substantially more than the value of the house being cleaned. 
Considering Senator Baucus has recently directed Fannie Mae to work 
with Libby and our other communities for affordable housing, there may 
be a plausible solution that the Federal agencies working together 
could identify that would benefit both the homeowner and the 
government. It seems that it may be more of a taxpayer advantage to 
have EPA review the cost effectiveness of clean-up compared to 
demolition and at the same time be able to offer low interest loans to 
these homeowners through the Fannie Mae program.
    Troy residents are concerned that clean-up efforts have been 
delayed in their community. We hope that the effort in Troy remains on 
schedule for starting the project this spring and is not delayed.
    Another community need is a research center with a clinical side 
that would be able to treat our resident victims locally with the 
latest available means. It seems very logical to us that research and 
treatment should be done where the source of contamination is heaviest.
    Also, our local emergency service organizations, especially our 
fire departments, need additional protective equipment to be able to 
respond to emergencies in contaminated homes. It is unfair to ask 
volunteers to respond to these emergencies and put themselves and their 
families at risk without appropriate protective equipment and clothing.
    After air quality testing and other testing is completed, we also 
need substantial media coverage outside of the area to let everyone 
know that Libby is a safe place to visit, raise your kids, or to retire 
here. The current stigma of ``unsafe'' attached to Libby needs to be 
overcome so that we can continue to try to improve our economy, have 
families look at us as a great place to live, and be able to get our 
pride back as a community.
    I want to thank all of you for your time today and extend a special 
thanks to Senator Baucus for remaining concerned about Libby and our 
future.

    Senator Baucus. Thank you very much. Who wants to go next?

 STATEMENT OF BRAD BLACK, M.D., LINCOLN COUNTY HEALTH OFFICER, 
     MEDICAL DIRECTOR, CENTER FOR ASBESTOS RELATED DISEASE

    Dr. Black. I also want to thank Senator Baucus and the 
committee for making the effort to come to the community to 
bring this hearing where the people are and where people have 
been affected. As you all know, my name is Brad Black, and I've 
been a physician in the practice of medicine in the Libby 
community since 1977. In 1983 I also became the Lincoln County 
health officer and continue to this day to serve in a 
consultative role.
    It was in the late 1990s when cases of asbestos-related 
diseases were identified in Libby residents whose only source 
of asbestos exposure was environmental. Soon thereafter, the 
suspicion of widespread environmental exposure was realized and 
the potential of a very large health impact appeared likely to 
develop. With the support of Senator Max Baucus, the community 
responded by developing a center for asbestos-related disease. 
This infrastructure was developed to meet the anticipated 
special needs that would evolve out of the asbestos screening 
and ongoing monitoring of the exposed Libby population.
    Since the clinic opened in July 2000, we have seen over 
1,800 people with varying degrees of asbestos-induced problems. 
The CARD has put programs in place for community outreach 
education and case management. It has been very humbling and 
painful to see the people--the number of people afflicted with 
disabling lung disease, cancer, and mesotheliomas in our 
community. In addition to the previous Zonolite workers and 
family members, those who played in ore piles and lived and 
worked in the community have been affected. For us every day is 
a constant challenge when we reflect on the failures in the 
public-health system that were partly to blame for the 
subsequent asbestos exposure and illness.
    That compels one to work harder to ensure that affected 
people receive appropriate and adequate care, and furthermore 
the critical need to prevent further asbestos-induced disease. 
My experience in working at CARD over the last 7 years has 
enlightened me to meet the issues regarding Libby asbestos. It 
repeatedly appears to cause a debilitating lung disease with 
lower exposures, far below what would be received in an 
occupational setting. In addition to the debilitating lung 
disease, we have also documented 10 mesotheliomas since 1996 
that have resulted from low environmental exposure. The fiber 
not only has the propensity to induce pleural fibrosis and 
mesothelioma but also has the characteristic of causing severe 
pleurisy with progressive scarring. These observations stand 
out and are associated with a mixture of asbestos fibers not 
previously studied. There is a significant amount of 
uncertainty about how much exposure to these fibers results in 
the observed health problems. This uncertainty will continue to 
linger over any asbestos cleanup in Libby until we have 
improved reassurance that we are working toward a safe 
completion. Extensive toxicologic studies planned by Region 8 
EPA scientists appear to address the main concerns that I have 
in order to better understand the exposure risk due to Libby 
asbestos.
    In order to remove the current levels of uncertainly, I 
feel we need to pursue research directed at three key areas 
that have also been well described in the NIOSH draft roadmap 
for research. These are highly pertinent to the Libby asbestos. 
One of these is to improve the techniques for sampling and 
analysis of mineral fibers and other particles. Two, 
determination of importance of different mineral fibers and the 
fiber-like cleavage fragments as to the potential toxicity. 
Three, better understanding of the mechanisms of the toxicity 
of these mineral fibers and these fiber-like cleavage 
fragments.
    I think the planned epidemiologic studies are a very 
important contributor to understanding exposure risk involved. 
The CARD has extensive health-assessment data accumulated over 
the past 7 years. The epidemiological studies of a subset of 
the CARD clinic population would involve assessments of 
morbidity of the subset of the population and ongoing extensive 
health monitoring, developing a better exposure assessment, and 
correlate with each health outcome should provide improved 
understanding of exposure risk.
    The knowledge gained from these toxicology studies will not 
only be critical to Lincoln County asbestos cleanup, but also 
help protect individuals who have exposure to Libby asbestos 
around the United States. The successful completion of these 
vital studies will require CARD infrastructure support to 
expand capability of database development, data entry, added 
testing equipment and staff and space.
    In summary, it is my role as Lincoln County health officer 
to ensure that no residents are at increased risk of developing 
asbestos-induced health problems. The currently planned studies 
as delineated by Regional 8 EPA with sufficient funding through 
completion should provide that reassurance.
    I also never want to leave off--and I know this is not 
pertinent necessarily to the discussion today, but the emphasis 
on the lack of healthcare funding and the failures of the 
promises made by W.R. Grace are sitting in front of us, and to 
not talk about that every time we talk about our community and 
asbestos is wrong. We have citizens that are not being treated 
right, and it continues to worsen. So I bring that up as an 
ending note, because I just can't leave it out. I respectfully 
submit this to the committee and thank you for this 
opportunity.
 Statement of Brad Black, M.D., Lincoln County Health Officer, Medical 
             Director, Center for Asbestos Related Disease
    My name is Brad Black. I have been a physician and practicing 
medicine in Libby, Montana since July 1977. Since 1983 I have served as 
consulting Lincoln County Health Officer. I have a very extensive 
history in the background leading up to the realization of the 
extensive environmental exposure of asbestos to this community.
    Since July 2000, I have served as medical director for the Center 
for Asbestos Related Disease (CARD). This is a locally developed clinic 
that is under the direction of a volunteer community board. The center 
was developed with the knowledge that there was a very extensive 
exposure to asbestos involving countless numbers of individuals that 
are both current residence as well as individuals who have left the 
community and relocated to other areas of the country.
    The local medical community in Lincoln County recognized that there 
would be a need for an organized and central location for respondents 
who participated in the asbestos health screens done by the ATSDR to 
have their screening results interpreted for diagnosis, education, 
counseling and treatment. In December 1999 Montana Senator Max Baucus 
secured a grant from Health Resources and Services Administration. With 
these resources the clinic was formed to meet the special community-
wide medical needs for those affected by exposure to asbestos.
    A cooperative venture between the local Libby hospital, 
professional medical community, Lincoln County Health office and 
Federal agencies created the Center for Asbestos Related Disease, Inc. 
Dr. Alan Whitehouse, a practicing and board certified pulmonologist 
from Spokane, Washington, had been treating a large number of 
individuals with asbestos-related disease due to the Libby Amphibole 
for numerous years prior, became a consultant to the CARD at the 
opening of the clinic. Through his dedication to his work and to the 
Libby community, he continues to travel to Libby monthly to provide 
specialty pulmonary consultation support for the CARD.
    I personally have spent the last 7 years entrenched in specialty 
pulmonary care related to ARD working alongside Dr. Whitehouse. I also 
have dedicated myself to continued learning, attending multiple 
conferences and professional meetings attended by prestigious asbestos 
experts, practicing physicians and researchers known both nationally 
and internationally. Several of these experts have reviewed numerous 
cases from the CARD cohort.
    During these last 7 years, the amount of complications related to 
asbestos exposure and disease has been humbling. It has truly been an 
education and privilege to be involved in the evaluation and care of 
these individuals.
    Since 1996 there have been at least 10 cases of mesothelioma caused 
by the environmental exposure to the Libby asbestos. The total number 
of mesotheliomas that have occurred since I have been in Libby have 
totaled 29. For a population of this size that is highly unusual and 
further indicates the extreme toxicity of the Libby Amphibole fiber in 
causing these types of cancers that are specific to asbestos exposure. 
Additionally, there are numerous individuals that vacationed and 
recreated in and around the vermiculite ore piles that have developed 
disabling pulmonary disease.
    We currently follow close to 1,800 patients with varying degrees of 
asbestos related abnormalities and disease. We continue to evaluate at 
least 20 new patients per month due to history of exposure or 
developing symptoms. There are a number of observations that are 
striking and of concern in this patient population. Of greatest concern 
from a public health stand point and from the superfund asbestos clean-
up project, is the relative potency and toxicity of this mixture of 
Amphibole asbestos. The frequency of lung disease and cancer from 
environmental exposure is overwhelming. The numbers of cases that 
relate to environmental exposure out-number the individuals who were 
Zonolite workers or family members of workers in the past.
    The cumulative time and exposure levels of non-mine related 
affected individuals who have rather profound lung disease demonstrate 
a remarkably lower level of exposure than they would be for individuals 
traditionally exposed occupationally to asbestos. Not infrequently, 
those who recreated in and around vermiculite ore or were family 
members of vermiculite workers ended up with more severe lung disease 
than the individuals who worked at the Zonolite facility. It has become 
obvious that with these observations of the high number of 
mesotheliomas due to environmental exposure to asbestos along with 
disabling lung disease, that the potency of the Libby Amphibole fiber 
needs further evaluation and scrutiny.
    Basically we do not know what the exposure risk is to this type of 
asbestos. It has never been studied previously and the clinical 
observations are quite concerning. At the current time there are plans 
for toxicology studies that will be addressing the issues of this 
concern. EPA Region 8 scientists have presented me with intent of 
activities which would include the following important considerations:
    1. Complete and comprehensive exposure assessments which are 
essential to gain a better understanding of exposure risk.
    2. Follow up of epidemiologic work at both the Libby site as well 
as the Marysville, Ohio site. Extensive health data is available 
through the CARD including ongoing cumulative surveillance and 
monitoring of health status and disease progression compiled in a 
cohesive process. The opportunity to do extended investigation over 
time of the health effects from asbestos exposure, as well as 
collection of tissue sampling at appropriate times, could greatly 
enhance the ability to understand and define the exposure risk.
    3. Development of analytical and toxicology studies that are 
comprehensive in its analysis should be directed toward those that are 
set forth in the draft asbestos road map done by NIOSH and submitted 
for review. The important points of this study would involve 
development of improved sampling and analytic methods for detection of 
asbestos and other mineral fibers. Development of information and 
knowledge on exposures to asbestos and other mineral fibers and fiber-
like cleavage fragments and the health outcomes of those exposures. The 
Libby population was highly exposed to both natural asbestos fibers as 
well as fiber-like cleavage fragments, which have unknown toxicity 
potential, which clearly need to be studied in this population. There 
needs to be a broader understanding of the important determinacy of 
toxicity for fibers and for fiber-like cleavage fragments that are in 
the Libby Amphibole mixture.
    In summary, I would like to state from my background as a long term 
Libby resident, practicing physician and as an exposed member of the 
population. I am aware of the historic failures to help protect the 
public and certainly have been humbled by the occurrence of asbestos 
induced disease in our community. We do not need to have further 
failure in the area of public health. It is essential at this time that 
individuals in our community are reassured that both current and future 
residents will no longer be at health risk from asbestos for long term 
living in this area.
    I'm certainly hopeful that the current activities in cleanup and 
asbestos abatement have satisfactorily provided prevention of hazardous 
exposure at the present and long into the future. The health outcomes 
observed however certainly demands that we make sure we are proceeding 
in the right direction to clean up asbestos in our community.
    It is essential at this time that the EPA funds and executes a 
comprehensive Amphibole asbestos toxicity assessment to assure both 
myself and our community that all risk to asbestos exposure is no 
longer an issue. This is especially important to the younger 
individuals who are and will be living in the community in the future 
where lower level asbestos accumulated over time has to be taken in to 
consideration. It is only when we have completed this toxicity 
assessment that we can be assured and confident we have protected human 
health.
    Libby residents no longer need to have uncertainty when their 
health is an issue. What we learn from the toxicity assessment will not 
only help our community but also serve to better define health risks 
for many people around the nation and world that could come in contact 
with Zonolite insulation products. As you may or may not know this is a 
much bigger health and economic concern that goes beyond the extensive 
issues that have been observed in Libby.
    I thank you for the opportunity to give input to the committee and 
am most confident that you are following up to make certain that Libby 
is taken care of in the appropriate manner for the long term health and 
safety of individuals.

    Senator Baucus. Thank you, Brad, very much. Leroy, it's all 
yours.

  STATEMENT OF LEROY THOM, BOARD MEMBER, LIBBY AREA TECHNICAL 
                     ASSISTANCE GROUP, INC.

    Mr. Thom. I'd like to thank Senator Baucus and the 
committee also for inviting me to testify today, I think. My 
name is Leroy Thom, I'm a local businessman, I'm a former 
worker of the mine, and I'm a member of several committees and 
organizations that are related to the cleanup issues here in 
Libby.
    As a community, we have seen Senator Baucus' commitment in 
his many trips to Libby and his many efforts to wrestle with 
the issues with this very complex issue. As many times as Max 
has been in Libby, I'm surprised that the Mayor hasn't given 
him a key to the city. Not that Max would need one, because our 
community is one that has no locked doors or gates. We are a 
community that trusts that everything is and will be done 
right. Generally that is the case. However, in the case of the 
issue before us today, some things have gone awry, and that's 
why we're here today.
    This issue started in 1999, and, in 2000, EPA started 
emergency-response cleanup. In 2002, Governor Martz fired a 
silver bullet, and Libby was listed as a Superfund site on the 
national priority list. To that point, everything was great. In 
2003, promises and commitments were made to fully and 
completely clean up Libby. At this time Region 8 had made plans 
to do both toxicological studies and exposure studies, probably 
the two most important tools that Region 8 would need to ensure 
a safe and effective cleanup. These studies, as of today, are 
still not done. Why has--why? This has been asked many times by 
people, and the answer is it wasn't funded.
    In 2006 there was a push to get a record of decision so the 
EPA could move from emergency response to remediation of the 
cleanup. This ROD would have bypassed the risk assessment and 
have no basis to ensure that any cleanup would be safe. So 
we're here today with concerns. What is clean? Are the areas 
and homes where contamination has been left behind going to 
come back to create the same health risks that were there 
before a home or property was cleaned? Is EPA going to have to 
revisit these properties again?
    We know today Region 8 has a new team, a team that, by all 
accounts, seems to be an experienced and well-rounded team, and 
it sounds like we will be getting a tox study and a risk 
assessment that has validity. As we heard today, that may take 
3 more years.
    So what do we need to do? We need closer oversight with 
improved cooperation between EPA and the community, we need 
improved support from EPA headquarters to Region 8, we need 
improved science, better communication, research into and 
involving healthcare, continued review and access of all 
technical documents that relate to this site in Libby, and, 
most importantly, proper funding to ensure that this project 
gets back on the track it has been derailed from. Thank you.
[GRAPHIC] [TIFF OMITTED] 55925.001

[GRAPHIC] [TIFF OMITTED] 55925.002

    Senator Baucus. Thank you. Marianne, you raised a very 
interesting point about maybe it's more effective and smarter 
use of taxpayers' dollars to help people go on with their lives 
if some of these homes are demolished. It might cost a lot more 
to clean up than it would be to demolish and get a new one. 
That's an excellent idea.
    Are people working on this? Is somebody trying to flush 
this out a little bit?
    Ms. Roose. I can tell you it has been addressed to the 
commissioners and I'm sure many others several times, and the 
answer to us has always been they don't buy new homes; they do 
not replace them.
    Senator Baucus. I don't know if your microphone is on.
    Ms. Roose. That question has been asked many times, 
Senator, and----
    (Brief interruption.)
    Ms. Roose. One more time. That question has been asked many 
times, and I know that, throughout the community, when we've 
seen some of the older homes that were full of asbestos being 
cleaned, and the question has been: Why would they do that when 
it would be much more cost-effective to build a new home or to 
get a modular, and healthier and safer? We were told that was 
not a part of the program.
    Senator Baucus. Is that something that you think some of 
people in Libby would like to pursue?
    Ms. Roose. Yes, I do. You can ask the audience. But it's a 
question----
    (Audience clapping.)
    Ms. Roose. Max, I believe there's probably folks in 
projects who have talked to you about the numbers of dollars 
that the cleanup has cost on an older home, and it would have 
been much more cost-effective and healthier and safer.
    Senator Baucus. But EPA says it doesn't have the authority?
    Ms. Roose. We were always told that's not a part of their 
program.
    Senator Baucus. It's not a customary part, but let's look 
into that and see. That's a very interesting idea.
    Ms. Roose. Thank you.
    Senator Baucus. Brad, could you explain a little more to me 
about, I guess, gaps in knowledge--find my notes--that you were 
talking about; namely, better understand the pathways of 
disease and so forth that might, what, help you in your work or 
help with the cleanup or what? I wasn't quite certain.
    Dr. Black. I think that one of the parts of the toxicology 
study was to actually do epidemiologic work; that is, work 
looking at health outcomes and then trying to reconstruct 
asbestos exposure in these clients of the clinic that we follow 
and try to get a better understanding of the amounts of 
exposure that led to the levels of disease that we observed in 
those patients. If we do that over enough of them and follow 
them, we get a better feel for the potency of the fibers and 
how much it takes to create significant lung disease.
    Senator Baucus. That would then help develop the baseline 
risk assessment and determine how clean is clean; that is, one 
of the ways?
    Dr. Black. It's one piece that complements the others, 
which also--and I mentioned in there--you know, we got a 
different fiber that's never been studied. We see that it takes 
less of it to cause significant lung disease. We don't 
understand--you know, we only measured the large long fibers, 
because it's much easier to measure long fibers.
    Senator Baucus. Who would do these studies, do you think? 
Who would be the best person, the best Agency, the best outfit 
to do this work?
    Dr. Black. The EPA. They're the ones who do it. They need 
to be on this and helping us figure out are we looking at the 
right fibers. You know, we have all these short fibers that are 
mixed in there, and a lot of those are under the normally 
regulated----
    Senator Baucus. Have you talked to them about that?
    Dr. Black. Yes.
    Senator Baucus. What do they say?
    Dr. Black. I think we're in line with that.
    Senator Baucus. Do they agree?
    Dr. Black. Oh, yeah, I think so. Is Paul around here to 
stand up and say yes?
    Mr. Peronard. Absolutely. It's one of the 12 studies Ms. 
Bodine mentioned earlier working with the CARD clinic and ATSDR 
to do this focus reassessment of the----
    Dr. Black. Right. Then hopefully to break down these 
fibers, decide if the fraction of the small fibers are--try to 
determine the toxicity of those types of fibers in comparison 
to the long fibers and get a better feel for really what's--
what are the fibers that are causing all the disease here, and 
why is the pattern we're seeing different? You know, why is the 
pattern of disease different? It may sit with some of these 
issues related to fiber----
    Senator Baucus. I'm no expert in all this, but is there a 
right balance between the toxicity studies and the 
epidemiological studies? Is that--does there need to be a 
balance there?
    Dr. Black. Yes, there does. There are pieces out of each of 
these we need to answer specific questions.
    Senator Baucus. Do you think the balance of the EPA is 
about right, or would you move it one direction or another?
    Dr. Black. I sense that we're hitting all the areas, and 
from my end and my knowledge, it looks to be balanced out 
fairly well.
    Senator Baucus. Do you have any advice--you heard Ms. 
Bodine talk about the study, Paul alluded to it, the 12 parts 
of it to be done in 3 years. Do you have any advice here now 
that they should do that study? While you're here, it's an 
opportunity to give some advice. What do you think?
    Dr. Black. I'm like everybody else. I was one that thought 
these were being done and didn't realize that until I sent a 
letter to you so stating that I was disappointed that we were 
this far behind, our community didn't deserve to have things 
delayed. My understanding has been the same as yours, is if 
there was more funding, things would move along faster.
    I keep hearing about restricting budgets and restricting 
budgets. So suddenly the next thing we know, the tox studies 
were dropped out. This was from my perspective. I think if 
somebody--if we don't get a sustained funding and we keep 
getting things cut and this and that and the job that--you 
know, we have to go back review this again and find out, oh, 
it's not being done right. I think it's a tragedy to Libby. I 
think, from what we've been through here, we deserve better. I 
think we need a steady support to get the job done here. We 
watch money go a lot of places, and I don't think we've had any 
events in our country that match Libby's.
    Senator Baucus. I'm not aware of any. I've not heard of 
any.
    Dr. Black. To see what we're witnessing now, and it's--you 
feel like people are suddenly forgetting Libby again. This 
dropping of toxicology studies was just another example. It's 
set very wrong. It set very wrong in me and----
    Senator Baucus. That's what Les Skramstad said: Don't 
forget us. After a while it tends to sometimes be forgotten.
    I forgot to ask Ms. Bodine this question. If she wants to, 
she can come up and give an answer.
    What's your thought of what happens after 3 years? I mean 
are we going to start cleanup--if we reach our baseline risk 
assessment, then at that point do we have our record of 
decision, and that means--what happens after 3 years? We're 
trying to speed up the 3 years, but what----
    Ms. Bodine. The studies will be done, and then we'll be 
able to have the toxicity information that we then apply the 
exposure data to, and that then allows us to develop cleanup 
numbers specific to Libby. Based on that--again, we're going to 
have to look and see what that means. Based on that, we would 
develop the final remedy.
    Senator Baucus. How long will that take?
    Ms. Bodine. The estimate for that is 2011, for the Record 
of Decision, for the final Record of Decision, for the 
residential area. As I mentioned earlier, if we completely cut 
off exposure, we can--for some of the other areas, like the 
processing plants, we would be able to do it earlier.
    Senator Baucus. You're saying 4 years from now? We're 2007. 
2011. Four years.
    Ms. Bodine. Right.
    Senator Baucus. What does that mean? That is, when will 
Libby be cleaned up properly?
    Ms. Bodine. I can't answer that, because I don't know what 
all that information is going to tell us, because the remedy is 
going to be informed by the results of the risk assessment.
    Senator Baucus. Now----
    Ms. Bodine. So either we will know that we don't have to go 
back and do any of these homes or we will know that there is 
more work to be done. But at this point I can't tell you, 
because I don't--we don't know that.
    Senator Baucus. So it's possible that the Record of 
Decision could say or the toxicity analysis could say we have 
to go back and do some of these areas all over again?
    Ms. Bodine. It's possible that we would go back--we would 
have to go back in and retest, and if the number was--if what 
we were finding in a home was higher than what our risk 
assessment was telling us, we would have to do more, yes, that 
is definitely possible.
    Senator Baucus. Assuming that the toxicity analysis is 
leaning toward going back again due to the Record of Decision, 
that in and of itself does not mean Libby is cleaned up just 
because the Record of Decision--
    Ms. Bodine. That means we know we have the plan.
    Senator Baucus. Your best guess of what that plan might 
contemplate?
    Ms. Bodine. I don't want to speculate.
    Senator Baucus. We're not going to hold you to it. I just 
want to hear--you're doing the best you can.
    Ms. Bodine. I really don't want to speculate.
    Senator Baucus. We need to know though. We need a plan.
    Ms. Bodine. Right, but you--we all agree we need this--we 
need the information, we've got--we're going to get good 
information on--we've already started developing on the cancer 
and the noncancer, we're going to have the--informed by the 
exposure information that we're going from the lung tissue that 
Dr. Black, which will help us then know what the exposures 
were. That all goes--all feeds up in--and that will be 
corroborated by animal studies. That will all feed up to know 
what level of exposure is within our risk range that we talked 
about earlier. But I can't tell--I can't tell you now what the 
answer is. I can't tell you what the outcome is before we've 
done the studies.
    Senator Baucus. I understand. I'm giving you a lot of 
assumptions that helped lead us to our earlier conclusion. 
Namely, toxicity analysis, let's assume, is great, no problem; 
we know what we have to and don't have to go back and do 
anything all over again. Assume that for the moment. Just 
assume. Then Record of Decision baseline----
    Ms. Bodine. Then we would look at our data and make sure 
that what--that if it was a place where there was still some 
exposure, that it was below the level that we had determined 
was an acceptable risk.
    Senator Baucus. I don't know if I'm alone in trying to 
figure all this out.
    Ms. Bodine. I appreciate that.
    Senator Baucus. I think a lot of other people are trying to 
figure it all out. It might be helpful just to lay it all out 
unvarnished, just--I mean with some dates. I mean be dead 
honest.
    Ms. Bodine. But I----
    Senator Baucus. I know. With some high and lows and with 
some parameters, with some good-case and, you know, not-so-
good-case scenarios so we know what we're doing. I think, to 
some degree, we're going to have to find solutions thinking out 
of the box here.
    This is just going on way too long. I don't know what it 
all is. Marianne talked about some of the housing that may be 
part of it. It just seems unconscionable, frankly, that 
something that began, you know, late 1990s--1999, here we are 
2007, and we're not going to, at the earlier, have this--close 
this chapter until 2011. Maybe even later after that. I think 
it behooves us, all of us in this community--you, me, 
everybody--to a little bit go back, if not to the drawing 
board, at least really start thinking big here, outside of the 
box. Come on, let's--we can't just keep doing things the 
ordinary way. We have to find unordinary ways, extraordinary 
ways, to get the results.
    Ms. Bodine. We want to make informed decisions based on 
information--
    Senator Baucus. I totally agree with that.
    Ms. Bodine. I don't want to speculate or give you a worse-
case scenario that may prove to be totally, completely 
unfounded, because I think that would be damaging to the 
community.
    Senator Baucus. Is it possible that because EPA has only 
been cleaning to a level cancer risk of 1 to, what, to 100 in 
some cases----
    Mr. Peronard. That's not actually right what you just said, 
sir. This is the second time. If you look at the document, what 
we describe in there is that the trigger conditions that exist, 
we think are the 1 to 100, 1 to 1,000. Our cleanups are going 
to be below that target, given the uncertainty of the risk 
assessment. So it's not fair to say our cleanups are the 1 to 
1,000 level. They're probably actually well below that. It is--
you're sort of missing the comparison there. Some conditions 
right now are patently unsafe. When we're addressing those, and 
we get something that is much safer as a product, it does not 
leave a 1-in-100 risk behind----
    Senator Baucus. That's correct.
    Mr. Peronard. It's probably substantially below that.
    Senator Baucus. That's right. I think we established that 
earlier when Ms. Bodine was talking earlier; namely, we were 
talking the greater risk level in the early stages; we were 
talking much lower risk level in the later stages. I think 
that's understood here. At least that's my understanding. Is 
that right or not right?
    Mr. Peronard. I mean you would always want to push risk 
levels down as far as you can get them. The reason there's a 
range is you balance that with uncertainties that surround your 
cleanups, which God knows we got here, and your ability, the 
practicability to implement the remedies. The only point I was 
trying to make is not confusing the existing conditions for the 
homes we targeted, which are clearly unacceptable with what the 
end product is of the cleanups that we've done, which are 
substantially lower in terms of risk.
    Senator Baucus. I thought I made that clear earlier, but 
I'm glad you're making it more clear. I appreciate that.
    Anyway, OK, so you're going to get to those higher levels 
when you finish, correct?
    Mr. Peronard. Correct.
    Senator Baucus. Paul, anything else you want to say. You're 
more knowledgeable here than a lot of people.
    Mr. Peronard. We do the cost analysis on demolitions all 
the time. We've actually done, since I've been back in the 
project, four demolitions. They always cost us more money than 
cleanups, and they typically leave the homeowner in a worse 
situation financially, when you look at what we're allowed to 
compensate for under the Uniform Relocation Act and what their 
insurance coverage is.
    So we typically, as a practical matter, don't like doing 
demolitions. They cost a lot of money. A lot of it has to do 
with the sampling you have to do to make sure you don't spread 
it to the next house. A lot of it also gets into the fact we 
don't get to put people out onto the street, and the 
replacement housing costs kills us. The other part of that is 
standard regulations only allow for demolition in lieu of 
asbestos removal if the house is structurally unsound. That, by 
the way, is when you get a house that's of zero value is about 
the time you start seeing a break-even point from a monetary 
standpoint. I'm with you. We want to spend dollars wisely. 
Everybody makes the assumption that demolition would be much 
cheaper. I can you tell you 99 times out of 100 that's 
absolutely untrue as well.
    Senator Baucus. It's untrue under current law. There's 
always an opportunity to change the law. There could be other 
reimbursement, more reimbursement, more aid, more assistance to 
people. That's kind of what I'm getting at in thinking outside 
the box here. I'm trying to get us not to think in usual ways 
of doing things only. All that is important. We need the data, 
as we've established. I mean this requires, I think, some 
pretty special, creative thinking. I'm just asking all of us to 
kind of dig deeper, think more creative. That's all I'm asking.
    Could you maybe, Leroy, give us some thoughts on--
apparently the EPA sent out some letters that some people 
thought were a little improper, so-called comfort letters or 
learning to live with vermiculite and so forth. If you could 
just talk about that a little. Has that been cleaned up or 
cleared up? I understand you sent out another letter this 
month. I've not seen them. But I'm just curious on that 
subject. What is the status?
    Mr. Thom. I believe that the living with vermiculite 
brochure was removed by EPA after several years of requests 
from Libby on and off from the community. There are some 
comfort letters out there that are being looked at, I know, 
from the TAG perspective, and that there are new letters that 
have been rewritten.
    Senator Baucus. Have you seen them?
    Mr. Thom. Yes, I have.
    Senator Baucus. Are you satisfied?
    Mr. Thom. I think basically we're satisfied.
    Senator Baucus. Good. OK. Anybody else have something to 
say before I go to the audience? Ms. Bodine, do you want to 
finish up?
    Ms. Bodine. No. This is useful.
    Senator Baucus. Thank you for coming. It's not easy to get 
to Libby. Thank you very, very much.
    Let's get to the audience now. Who has questions? If you 
could just speak your name, and say what you have to say.
    Mr. Williamson. My name is Lloyd Douglas Williamson. I am 
one--I feel disrespectful to the American flag that we didn't 
stand by and stand with it. I still think there's time to do it 
in this situation here.
    The second thing, what the doctor and his friend has done 
to us, and not being told and listened to by your program did a 
lot, but he knew a lot from people, and he knew a lot more than 
a lot of people know.
    Now, my third item is on this--my third item is: Why don't 
you believe in why Libby has to say their points here? I'm a 
contractor, been a contractor all my life. Not 100 percent. But 
this situation that was done leaving these facilities out there 
and saying that it was all right to take and to build houses 
that were completely 80, 90 years old and to save that and 
prolong it, that was one of the most stupidious situations I've 
ever seen in my life. That stuff is still killing people. We 
have to wait 3 years before we go on here. Three years, yes. I 
believe my figure said 2010. That means that it takes that 
long, in 2007, with computers, and we absolutely don't know 
anything about this which was done. Eight years ago, nine years 
ago, it was told that this was bad stuff. The Government was 
here and told us exactly what that was. It was bad, we believed 
it, and it's just as bad now. Thank you very much.
    Senator Baucus. That raises a question I have for, again, 
Ms. Bodine. I'm sorry. As public servants, it's our job to 
answer questions as best we can. What can be done in the 
interim? This gentleman prompted a question in my mind with his 
question. While we're working on the 3-year study, trying to 
speed it up, et cetera, doing the epidemiological studies and 
things Dr. Black was talking about, are there structures that 
can be cleaned up in the interim so we're not just sitting 
around waiting? I know you're going to do 160 sites this next 
year.
    Ms. Bodine. We're not sitting around. We're going to 
continue with the removal actions as we have been. So we're 
definitely not going to be sitting around. To address remaining 
risks that may be left over--we'll find out--but that may be 
left over from removals, we're also setting up a program with 
an environmental-resource specialist so that people know who to 
call to ask questions. Right now they call Mike. We'll have 
another person on board whose job is going to be to be a 
resource to the community so that, if they encounter asbestos, 
they encounter vermiculite, that they have a person to go to to 
know how to handle it safely.
    Senator Baucus. Are the 160 sites identified?
    Ms. Bodine. I don't believe so.
    Mr. Cirian. We do have them identified. As an overall 
group, we have all the properties identified, up to the ones 
that wouldn't let us do the contaminant screening studies. But 
we do have to put them into a task order, and we have the first 
three task orders specifically identified for coming up, and 
the rest of them are being done with designs and everything to 
move that forward.
    Senator Baucus. Could you give me a list of those sites, 
please.
    Mr. Cirian. Yes, sir.
    Senator Baucus. We have a list of people signed up who want 
to testify. I think it's only proper that they be allowed to 
speak first and anybody else afterwards. Gayla Benefield.
    Ms. Benefield. Yes, Max, boy, we've come a along ways, 
haven't we.
    Senator Baucus. We have. Since your living room.
    Ms. Benefield. Yes, since my living room. But, by golly, 
the tough survive, because we're still here. Actually, I want 
to speak on behalf of Les and the family. The first time you 
met Les, you shook his hand. He didn't feel it was necessary to 
have a signed statement or anything else. You shook his hand. 
He always said you stood by your word as a gentleman. I spoke 
to Les just before he died, and Les made me promise that I 
wouldn't give up, and he said he had spoken to you, and you 
wouldn't give up. That's the biggest thing. I want you to be 
assured that we're not going to give up here in Libby, we're 
going to continue on. We don't have Les around to shake hands 
with, but we hold you to that handshake. We had this made up. 
This is just a picture of a working man. That is our friend.
    Senator Baucus. This is wonderful.
    Ms. Benefield. I thought you would like it.
    Senator Baucus. It is a silhouette of Les. It's just 
wonderful.
    Ms. Benefield. It's his feather, it's his microphone.
    Senator Baucus. Thank you.
    Ms. Benefield. When you think of Les, I'll tell you what--
I'm going to gripe today--you have to think carpets, walls, 
crawlspaces. Something Les never quite understood was why they 
would put a limit of $10,000 on a home. We're talking about a 
human life. We're talking about safety in human life for the 
rest of our life. Les was worried about future generations, and 
if it's going to take more than that to clean a home or why 
aren't we doing it faster. But all Les was worried about was 
not himself, not my generation, but future generations.
    Senator Baucus. That's very true. Over and over he made 
that point to me.
    Ms. Benefield. Just remember, walls, carpets, crawlspaces, 
and that was Les.
    Senator Baucus. Thanks so much. He was a real inspiration 
to all of us. Let's all give a round of applause to Les. I know 
he can hear it.
    (Audience applauded.)
    Senator Baucus. Ms. Bodine, you would have loved Les. He 
was quite a guy.
    Next I have Gordon Sullivan.
    Mr. Sullivan. Senator Baucus, thank you for coming today, 
and everybody who spoke. I was the past technical advisor for 
the Libby community. I've lived in town here for 10 years. My 
wife has lived here for over 25 years. We're business owners. 
Now I'm an outdoor writer and I work in Libby.
    When I hear Dr. Black talk about mesothelioma exposures or 
diagnosis in a certain period of time, that causes my heart to 
jump, Brad, because exposure started for me the day I got my 
house back from the EPA.
    Early on Paul Peronard came to me and said, ``you know, 
we're going to need some houses to clean up here in Libby.'' I 
stepped forward on behalf of my family. My house is the only 
thing I have, my house and my health. The day I got my house 
back, the next day I got hit in the face with a coffee can full 
of asbestos-containing insulation. The exposure went on and on 
and on until I crawled in the basement that they had contracted 
to clean but never cleaned, and I found electrical receptacles 
taped off with raw vermiculite behind them. I found floors with 
sparkling vermiculite imbedded in them by polyurethane. Then 
last summer, after I thought my property was clean, I went out 
and rototilled about 2500 square feet in my yard, and I came up 
with tailings that could go anywhere from 10 to 20 percent.
    In that 2,000-square-foot path, there are two of your 
sample spots over, Ms. Bodine. I can't tell you what it takes 
to trust an organization like the EPA, but Paul and Mike and 
everybody at the EPA has all acknowledged that there were 
mistakes made in our house. None of them have talked about the 
exposure caused to me and my family or the people who visit us 
in our house. They don't talk about that. They talk about 
coming back and cleaning our house up again. I can't tell you, 
Ms. Bodine, how difficult it is for me to trust you again. I 
just can't do it. It will take some guy like Paul to get my 
trust back.
    Incidentally, Senator Baucus, in 2006, October 2006--would 
everybody that was in the Denver Lite conference on Libby, MT, 
down in Denver raise their hand? Everybody who sat in that 
conference. I think you did, Paul, Courtney.
    We had a commitment, on October 2004, for a risk 
assessment. We had been working on a risk assessment for months 
and months and months before that. When we left that 
conference--and Gayla, you can help me on this--they promised 
us, Senator Baucus, that we would have a risk assessment in 6 
months. Am I right Gayla? Leroy?
    Mr. Thom. Yes, you are.
    Ms. Benefield. Yes.
    Mr. Sullivan. How many promises does it need? How many 
promises does it take? We would like to think there's a new day 
coming in Libby, MT. I especially would like to see that 
happen, because now they're coming back to clean my house up a 
second time, and I don't trust you, Ms. Bodine. I'm sorry to 
say that, but I don't trust you.
    Incidentally, Senator Baucus, in about 2003 the TAG went to 
work with the EPA and started to look at the demolition of 
houses. In October 2004, we submitted to the EPA a 106-page 
community-response document that specifically dealt with the 
use of PLM as an analytical tool, the demolition of houses and 
the potential of replacing them, we challenged the EPA's cost-
benefit-analysis theories. Paul, you might throw into your 
calculations the fact that, when you do your cost-benefit 
analysis on replacing houses, you don't put in the most 
expensive component; that's operation and maintenance. Do you, 
Paul? Because we don't know what the long-term operation and 
maintenance on every house in Libby, MT, will be. Do we Paul?
    Mr. Peronard. No, sir.
    Mr. Sullivan. Senator Baucus, we've covered a lot of ground 
inside this city. We've had some good leadership. But the fact 
is that we've not been dealt with in good faith. I was one of 
the four people that participated in the article that started 
the inspector general's investigation. I spent endless time 
with Cory Rumple, I spent endless time with Sean Hurdle 
(phonetic), the next inspector general. The fact is, Senator, 
we've never gotten Cory Rumple's report have we?
    Senator Baucus. Not to my knowledge.
    Mr. Sullivan. We won't, will we?
    Senator Baucus. We'll find it.
    Mr. Sullivan. That's another issue of good faith.
    Senator Baucus, I thank you.
    Senator Baucus. You're welcome. Thank you very, very much.
    Next, Clinton. Good to see you, Clinton. For the recorder, 
it's Clinton May.
    Mr. Maynard. Clinton Maynard.
    Senator Baucus. Maynard. I'm sorry.
    Mr. Maynard. Senator, thanks for coming here, and members 
of the hearing committee.
    Max, what the risk assessment is going to give us is the 
number that--the level where we start seeing disease, that's 
what risk assessment is going to give us. It cites specific 
information and gives us at what level of exposure do we start 
seeing disease. OK. I just wanted to clarify that so that what 
I'm about to say here makes a little bit more sense. I'm going 
to censor my prepared statement here, because I think we're 
moving in the right direction here. I think, Senator, thinking 
out of the box is correct. Thank you.
    I would like to begin by dispelling the myth that we don't 
know what we are dealing with here, this amphibole asbestos. 
Researchers discovered 46 years ago that, if one wants to see 
what mesothelioma looks like, all you have to do is dose some 
rats with amphibole family mineral fiber. There is, in fact 
ample science in place for us to know when we are being lied 
to, and we can recognize a bogus cleanup when we see one being 
imposed upon us.
    Senator Baucus, you recently expressed outrage at the IG 
report. Thank you, sir. You spoke of people being held 
accountable. Well, sir, I would expect that, if you go down 
that road, you will find that no one will be held accountable, 
and you will see a lot of fingers all being pointed in the same 
direction. The Integrated Risk Information System IRIS, the 
rule book, is wrong. IRIS incorrectly assesses fiber type. This 
allows for those who would to twist the truth to an 
unrecognizable and dangerous state. IRIS is the scapegoat. IRIS 
does not reflect the best-available science. Please fix it now.
    We are 7 years into this now, and the office of the 
inspector general has had to recommend that we have a risk 
assessment. What's wrong with this picture? It's called 
suppression of science to the further detriment to this 
already-exposed population. So who is it that might benefit 
from suppression of the sites? Well, W.R. Grace & Company. The 
citizens have called foul and have been proven right--proven to 
be right. I have heard and I believe that EPA science personnel 
have been shut out of the discussion over these many years now. 
Unacceptable.
    Senator, please insist that science steer the ship from 
here on out, and please also insist that the public is not only 
heard but listened to. If our Nation does not recognize and 
address preventable exposure to amphibole mineral fiber in 
Libby and nationally, well, I guess we're all a sorry lot.
    Finally, I believe that we have reached the point in all of 
this that Libby is in desperate need of funding for legal 
assistance, with no strings attached. See what you can do for 
us. Thank you all for your time.
    Senator Baucus. Clinton, thanks so very much. You hung in 
there. You were at some of the meetings in the past. It's great 
to see you, but, on the other hand, I wish that we were getting 
this thing solved so you wouldn't have to come up and speak so 
often. Thanks, Clinton.
    Next we have----
    Mr. Flynn. My name is Kevin Flynn.
    Senator Baucus. Kevin?
    Mr. Flynn. You know me, Max.
    Senator Baucus. I guess I do now.
    Mr. Flynn. I'm a fourth-generation asbestos worker out of 
New York City. I live in Billings. Max has been to my house. 
Those jobs you fight for, Max these aren't here; you're not 
fighting for these jobs.
    What I want to tell you is that the companies that you 
hire, that are your low bidders, two of them IRS Environmental 
and Marcose (phonetic), between the two of them have over 75 
OSHA violations in the asbestos industry. Did you know that?
    Ms. Bodine. No.
    Mr. Flynn. It scares me. See, my family put that stuff in 
the Empire State Building, and I take it out all over the 
country. It scares me to talk to you about emergency removal. 
It scares me about high activity, because what you do is you 
lower your 29 CFR, Code of Federal Regulations, the rules that 
tell us how to remove asbestos. When you lower those standards, 
what happens? The worker's exposed because safety records go 
out the window, the way they remove it goes out the window. 
There's nothing high rate about removing asbestos.
    What scares me the most is, you don't have nothing to 
compare Libby to? I can. The Twin Towers. When the twin towers 
came down, it was nothing but asbestos, the whole cloud of 
dust, the whole air was filled with asbestos. The EPA lowered 
the standards to clean that place up as fast as possible. 
Again, there's nothing fast about removing asbestos nothing, 
because that kills you. I'll tell you what, the workers that 
cleaned that place up and the public are as sick as when it 
fell today, but only faster, because there was more of it.
    You need to take a look about--at best-value contracting, 
the most-responsible bidder the most-responsible lower bidder. 
Your contractors right now with no level of toxicity to tell 
what's in the air, are just throwing dirt around. They're just 
moving dirt from here and moving dirt from there. It's been 
proven a few times already. I know that.
    Nice seeing you again, Max. Thanks.
    Senator Baucus. Thank you, Kevin, very much. Thank you.
    I have also now a Bill Caldwell.
    Mr. Caldwell. Thank you. I have my 2-minute talk here, and 
I'll give you a copy of it. My name is William D. Caldwell.
    Senator Baucus. Anybody who has prepared remarks, they'll 
all be included in the record automatically.
    Mr. Caldwell. My name is William D. Caldwell, and, along 
with my wife, Marjorie, reside at 580 Greers Ferry here in 
Libby. I thank you Senator Baucus for this opportunity to 
comment on the asbestos-cleanup efforts here in Libby.
    During the fall 2002, our home and lot were tested for the 
presence of asbestos, and in October of that year, Paul came 
out and visited with us in our kitchen and presented us with a 
report stating that our house was free of asbestos and that 
contamination did exist in our garden and in certain flower 
beds and around the grounds outside. Mr. Peronard advised us 
that we should discontinue the use of the garden until the EPA 
could clean it up which we've done. That was nearly 5 years 
ago, and in spite of repeated inquiries, we've been unable to 
obtain any kind of schedule as to when decontamination of our 
property would take place. While always courteous, ``not this 
year; maybe next,'' is the extent of the answers that we've 
been given. I understand and I don't question that unexpected 
higher priority kinds of operations do come up, such as the 
high-school-track area, and things do happen and plans need to 
change. But I think it's slowed the work on residential sites, 
but I also understand that failing to plan an entire task often 
results in wasted effort and needless expense.
    Interesting that the term planning has come up several 
times here today. This is just an example. I'm not widely 
experienced in the asbestos issues that are here in Libby, just 
from our own personal observations. But as an example, about 3 
years ago a property very close to ours--actually, our 
adjoining back-door neighbor--was cleaned up. Then last year 
another property that adjoins our garden next to us was cleaned 
up. Presumably sometime in the future our property is going to 
be cleaned up. So just from an operational point of view, it 
strikes me that there are a lot of efficiencies that can be 
obtained by looking at the total task and grouping things that 
make sense to be grouped. There are savings to be made, in 
terms of equipment mobilization, in terms of--for the 
contractor. It makes it less expensive for them to move 
equipment in. If they have to come back to the same place year 
after year moving equipment and supplies, it costs money. It 
also costs the EPA administrative--their contract 
administrators additional time in dealing with some of these 
things.
    Just from an overall efficiency point of view, it seems 
that there could be some advances made by looking at the whole 
job and at least providing us as residents, with some knowledge 
when our property is going to be attended to. You know, ``Well, 
not this year; maybe next,'' is not a really good answer. I 
mean we know how many properties are out there that need 
attention. As I said before, surely that number can change, but 
we do have quite a bit of knowledge about it.
    Perhaps even more importantly, cleaning up certain 
properties and leaving adjoining properties untreated for 
several years seems to invite recontamination of the previously 
treated property. In short, failure to plan the entire job is 
not only frustrating to the affected residents of Lincoln 
County but invites inefficiency and excessive costs.
    Senator Baucus. Thank you, Bill, very much.
    Mr. Caldwell. You're welcome.
    Senator Baucus. Thank you.
    I would like Ms. Bodine or Paul or somebody maybe to 
comment on that. Bill clearly has raised an issue here, and he 
clearly is trying to find a reasonable solution here. So I'm 
just wondering the degree to which there is a public schedule 
so people know what it is. I'm sure things change a little bit 
from time to time. Is there some kind of process for the people 
to get more involved in what the schedules are so--after all, 
this--I don't want to be corny about this, but these are our 
employers, and you know, we're working for them. We need to 
find a system that works for them.
    Mr. Peronard. We have a couple of different prioritization 
schemes for how we target select houses but you can stop and do 
the math real quick. We're short--just short of 1,500 
properties right now that are in the cleanup queue to do. If 
you get to do say an average of 200 a year, which is about what 
our pace has been--a little less this year; a little more some 
other years--somebody is going to wait 7 years. At the current 
funding level, current pace of cleanups that's inevitable. When 
we go into target properties for cleanup, especially the first 
2, 2\1/2\ years, we try to target prioritize by asbestos 
concentrations, conditions of the house, try to put places with 
active leaks ahead of places that just have it in the attic, 
for example. We started doing a little bit of geographic 
grouping last year, because we've gotten rid of most of the 
obvious targets.
    We run into a problem doing the geographic groupings, and a 
lot of this has to do with, when you start dealing with 
individual homeowners, we want to do these four properties that 
are in the queue, we want to do them this date and this 
schedule. We actually have a hard time accommodating folks. 
``We can't do it this month, because my son is getting 
married,'' you know ``we've got vacation plans, we won't be in 
the area.'' So we end up taking these geographic groupings and 
breaking them down largely to accommodate homeowner schedules. 
I'm sorry Mr. Caldwell--folks up here in Libby are infinitely 
reasonable. That has always been the case. I'm sorry somebody--
I wouldn't want to be in the position of being at the tail end 
of the list but there is going to be a tail end of the list, 
and I frankly, don't see a way around it at the current pace of 
production.
    Senator Baucus. Are these criteria and priorities and 
groupings commonly known to the community? Does everybody know 
what they are?
    Mr. Peronard. When we launch----
    Senator Baucus. Not the criteria, but that sites the 
houses.
    Mr. Peronard. When you--when we----
    Senator Baucus. I can ask the people in the room here. Bill 
doesn't know. Others don't know.
    Mr. Peronard. We have put out--when we started the 
residential cleanup program in 2000, we actually put out a list 
of triage criteria at a couple public meetings. You know, they 
were fairly widely attended, but it was back back in 2002, when 
we talked about the worse first and how we were going to sort 
them. The properties we're doing now all tend to be the less-
obvious candidates. They're all about the same, in terms of 
contamination level and the types of property we're doing. Some 
are bigger than others, some have more gardens involved, but we 
don't have the really--a lot of those screamers left anymore, 
where it's dropping in the ceiling now. Those do tend to be the 
ones--you know, somebody comes in, ``Hey, I started a 
remodeling job, and I dropped the stuff in my kitchen,'' those 
are the ones that get sped up and moved up in the schedule, 
because there's an immediate exposure----
    Senator Baucus. I understand. It just seems to me--all of 
us have to bend over backwards to find new ideas. It just seems 
to me that some of the questions here is trust, you've heard, 
and some of it is frustration, as you've heard. Ignorance 
breeds fear. People that don't know something, naturally it's 
fearful. I'm just trying to explore with you if there's some 
way to deal with all of that, particularly on the scheduling 
part of it, some ways where you can reevaluate the community, 
have a town meeting or something: Here's what we're doing; 
here's the list. Some people are going to like it; some are not 
going to like it. Go through it all. As you said, people in 
Libby are reasonable. They're going to know basically, their 
house is not quite as bad as some other. I'm just trying to 
find some way here that we can really communicate really well 
with the people in Libby to deal with the schedule. That's all.
    We have more witnesses here. I have to get through them 
all. Edna Johnson.
    Eileen Carney. Thanks, Max. Edna asked me to read her 
statement. She's the lady in the wheelchair.
    I'd like to use this opportunity to tell how asbestosis has 
affected members of my family. So far we have lost five 
relatives who have died from it, and several of us have 
suffered from having it. My brother and his wife have been on 
oxygen for over a year. She can't drive anymore. Neither of 
them worked at the Zonolite mill, but grew up in Libby since 
1926 and breathed the air that killed since 1920, when they 
began to mine--process the vermiculite ore. I was born in Libby 
in 1930 and grew up here, as did all my four children and 11 
grandchildren. Several of my grandchildren have lupus and 
rheumatoid arthritis and got it in their 20s and 30s. They have 
pulmonary breathing problems and have to use breathing aids, 
such as a nebulizer, as I use every day. Sometimes my whole 
chest, heart, and lungs hurt when I breath, and it lasts four 
hours or so. But I know lots of Libby people who are much worse 
off than me and are on oxygen struggling to breathe for 4 years 
before dying. Our family has lost two brothers-in-law, a cousin 
and his wife, and a nephew, most of whom died from asbestosis 
at a young age. Now my brother and his wife are declining 
rapidly. A lot of my young sons-in-law have it now.
    Senator Baucus. Thank you very much. Thank you very much. 
Thank you.
    Others who wish to speak. We have a couple minutes here. 
Yes, sir.
    Mr. Wood. Sorry, I didn't sign up to speak so I'll just 
take a quick second here. My name is Tom Wood.
    Senator Baucus. Say what you want to say.
    Mr. Wood. I pack a lot of weight around this town, Max. I'm 
chief of the Libby volunteer fire department, and I want to 
thank Kirby from your office who has been very helpful to us 
the last few months and I want to thank Commissioner Roose for 
her statement.
    We have a very, very big problem in the asbestos still in 
these buildings, folks. We talk about taking it out of the 
roofs. It's still in the walls. We have between 120 and 150 
fire calls a year as a volunteer fire department. We're 
breaching these walls all the time. Our people are covered with 
vermiculite when we leave the fire scenes. Across the street, 
there's still a roped-off area of a fire of about 2 months ago. 
Three o'clock in the morning, 20 F it's a little bit chilly 
out to have to wash all your people down with fire hoses and 
wash your equipment before you can leave the fire scene because 
it's covered in vermiculite. It's a problem, and it's something 
that we desperately need some help with funding to buy the 
proper equipment that this little town can't afford. We're 
looking at a half-a-million bucks or more to get the equipment 
that is needed. We can't wait 3 years. We can't wait 3 more 
minutes. We've had three major house fires, one of which an 
individual passed away in the fire. When we brought the 
individual out, we had to have the ambulance decontaminated 
because there was vermiculite in the fire. It's costly, there's 
things that--we need some help. I believe you have it in your 
appropriations.
    Senator Baucus. You're right.
    Mr. Wood. We really appreciate any help----
    Senator Baucus. We discussed just now how you made a 
request, and we're going to try to get additional funds.
    Mr. Wood. Thank you. I don't know that the community is 
even aware of the problem we have with this. We try to not be 
political as a volunteer fire department, but we really need 
to. I got to looking Max--I'll make this real short--over the 
last couple of years, we've buried, I believe, seven of our 
volunteer firemen that have got too old and retired. Five of 
those are from asbestos issues. One of them worked at Zonolite. 
The other four didn't. So they're getting it from someplace, 
and it could very well be from these fire scenes that these 
guys are attending. Thank you.
    Senator Baucus. Thank you very much. Thank you.
    What I'd like to do, Ms. Bodine, is you and I kind of 
share. I can--ask each other--we can each say what we've 
learned here. Some things you learned and I'll mention some 
things I learned. I'll just give you the first opportunity.
    Ms. Bodine. Thank you. I have learned how deeply the 
asbestos exposure has affected the community. It's one thing to 
read about it, but it's another thing to come and talk to 
people and hear about it firsthand. Thank you.
    Senator Baucus. You're welcome. Couple things I've learned. 
One is we just need more money.
    We have to move more quickly, and I'm again urging the EPA 
to make a larger request to the Administration in all the 
budget requests that you make. We just need more money here. 
That's simple. That's clear. That's obvious. We just need to 
speed up this process. It's been since 2000. We have to find 
some way, I mentioned, thinking outside of the box, some way 
for all of us together. I put the burden on you, and I put the 
burden on me, frankly, to try to figure out how to do that, 
because, after all, you're the implementer you and Paul and 
contractors and so forth, you're ones that do the actual work.
    Number 3, I learned we're going to do this toxicity study. 
That's good news. Working with Dr. Black, ready to make that 
happen. I'm a little concerned how long it's going to take. 
But, again you're going to give me a monthly report. So we can 
kind of work with that and see what we can do to make it work 
even better.
    One thing we did not touch on at all, and it's a huge 
tragedy, as Dr. Black referred to, and that's the medical needs 
in this community. We're going to have to--that's a whole 
separate subject. That's not really EPA. But the more you help 
in your work, on the margin, on the edge, that's going to help 
us on the medical side too. We're going to certainly deal with 
the medical side as well.
    One thing I'm going to do--this photograph touches me so 
much. I'm going to put it in my personal office so I see it 
every day and my staff sees it every day. I'm going to do 
something else. I'm going to give you a copy, and I'm going to 
ask you to put it in your personal office. You and I together 
get this done.
    Ms. Norita Skramstad. Max, I just want to say thank you for 
the honor that you bestowed on Les. Thank you.
    Senator Baucus. This is what it's all about. Thank you very 
much everybody. Do we have somebody else?
    Ms. Priest. I'm Alice Priest. Everybody--well, not 
everybody, but the majority are complaining the EPA don't do 
this and the EPA don't do that.
    Senator Baucus. You have to put the microphone close to 
you. Right up next to your mouth. Almost bite it.
    Ms. Priest. So many of them here today are against the EPA: 
They don't do this right, they don't do that right, they--well, 
I'm for the EPA. If you want to see it, how the EPA works, 
Senator Baucus before you go back, go down on West 1st Street, 
and they're working on a place there, and it will surprise you 
how hard they work. Thank you.
    Senator Baucus. I'm sure that's the case. We're all for the 
EPA. We just want to make sure we get this job done as quickly 
as possible.
    Yes, sir.
    Mr. Parker. I can probably do without that thing.
    Senator Baucus. You could. You have the big voice.
    Mr. Parker. My name is Mel Parker, and my wife and I own 
the treating plant up there on the river where W.R. Grace used 
to have their exfoliation and where all of the ore came in from 
the mine site there. They came in in the year 2000, sir, and 
they just got done cleaning it up in 2006, which was last year. 
A couple of things have come up. We recognized, as the EPA was 
cleaning up our property with its contractors that there was 
problems dealing with us that we tried to handle on our own, 
but we could see an overlap, in that when it came to doing the 
residential areas, that we were going to run into basically the 
same problems. What we are concerned about here now is that 
they have broken the Libby area up into operating units and--
for example, Stimson is one, our screening plant is another, 
the mine is another one here, the export plant, and Stimson. 
What I can't understand, is it because we don't have the risk 
assessment done on toxicity and exposure, they are talking 
about? Ms. Bodine is talking about being able to get a 
resolution on some of those areas before they get a completion 
done on the residential areas within this Unit No. 7, whatever 
the Libby area is. What I can't understand is, how can we have 
any resolution at all on what the risk assessment is before it 
is completed? Not just giving us resolution now and the export 
plant resolution and the mine site resolution, but holding off 
until they get done with those before they go on to give the 
record of decision to the City. It seems to me, and perhaps 
there's an answer to this, as to why we are going to get a 
record of decision before the residents within the Libby area 
are going to get a resolution.
    Senator Baucus. That's a good question.
    Ms. Bodine. I actually mentioned, when we were talking 
about the fact that we were hoping to do some record of 
decision earlier, there are two components to a risk 
assessment: Exposure and toxicity. If you cut off exposure, 
then your risk is zero; you have no exposure. So whether your 
toxicity number is here or here, it's not going to matter 
because you don't have exposure. So the hope is that for some 
areas, we will be able to go--and we're going to do some more 
remedial--some more data collection this year. We will be able 
to go in and confirm that we've cut off exposure, which would 
then allow us to go forward.
    Senator Baucus. Does that answer your question?
    Mr. Parker. No, sir, it doesn't.
    Senator Baucus. Let's try again.
    Mr. Parker. Let's take up at the mine site all right. The 
mine site is where the ore all came from originally. There are 
corridors coming out of the mine area. One of them would be 
down Rainy Creek which is right where we are, and that affects 
basically two particular operating units. If you go down toward 
Troy and you get just past the four lane, you can look off to 
your right, and you will see Vermiculite Mountain. That 
material used to come down through there, and then, with the 
wind coming from Troy up that canyon, it would blow it back 
into Libby. So consequently, until you finish up the mine site, 
I can't truly understand how on earth you're ever going to get 
a risk assessment that can be done in one place and not another 
when you're impacting at least four different operating units.
    Ms. Bodine. If our data shows that there's still exposure 
at--again, at whatever operable unit then we're going to have 
to wait until we have the toxicity number to apply to the 
exposure. But if we have another operable unit where we can 
show that we've cut off exposure, then we are hopeful that we 
will be able to proceed more expeditiously, more quickly, as 
you have asked. So I don't have an answer, because it will 
depend on what the data says on whether there is exposure. For 
your particular plant, I don't know--if there is ongoing 
exposure, then it would have to wait. If there isn't, then 
that's something----
    Senator Baucus. If you're as familiar geographically with 
the area, and Bill--Paul is. Maybe, Paul, you can help Bill 
here.
    Mr. Peronard. With Bill's property screening--conceptually, 
Ms. Bodine is absolutely right. The big piece that we have to 
figure out for the screening plant, for example, is really its 
relationship to the mine and the ambient air coming off the 
mine. Now Ms. Bodine did not mentioned that as one of the 
possible earlier candidates. We haven't even started the 
ambient-air sampling. We started the ambient-air sampling in 
Libby covering the export plant and the former Stimson mill, 
and we're going to push out to the processing areas and the 
mine site this summer. So we'll start collecting that exposure 
information.
    The idea is, with the big sources removed at places like 
the export plant, presuming--and this is presumption--wait for 
the data to see--if the ambient-air numbers come back on the 
low side, then we might be able to move forward those outside 
of the toxicity-assessment process. That's--that's subject to 
what the data says.
    But, Mel, you're right. You have to collect that 
information to cover those exposure pathways. For each of the 
operable units, including the screening plant, we have a 
conceptual site model trying to identify what exposure pathways 
we think are out there and what data we need to collect to get 
those. The idea is for these places where we've done rather 
significant cleanups, that the biggest contributors to the risk 
and exposure we've already remediated.
    Senator Baucus. Mel, now what do you think?
    Mr. Parker. I can understand what he's saying. What was 
just mentioned to me was the analytical procedure that they're 
going to do that. Now, I believe they're going to use a PLM, 
which is a polarized light microscopy to do that, but yet that 
has not been proven to be the analytical procedure that they're 
going to use to finally come up with a risk assessment. So here 
we are going through before we get a ROD and trying that on 
different operating units but not coming up with a correct 
solution, you might say to the ROD.
    Senator Baucus. We're not going to resolve that totally 
here. I do have an idea. Right after this meeting, if you could 
talk to Paul, and then--after you talk to Paul, get back to me 
as to whether you're satisfied. I'm going to give you some 
addresses here and some information that you can get back to 
me.
    This, I think, has been helpful. We kind of have our 
marching orders. We know what we have to do. Let's altogether 
do it. That's all there is to discuss. I am going to give 
everybody my personal private email and my personal telephone. 
I'll wait until you get a pencil and paper. This is my personal 
private email. It's not my office email. So when you write me, 
it's personal private, you know, only I see it, which means, if 
you don't get a response, you know who to blame. I will 
respond. But I'll also give it to my office, to my staff, to 
help work on it, to get a solution. Here's my email address, 
personal private. Ms. Bodine, you and I can go back and forth 
with this too. I can get yours. Here's mine. Personal private. 
maxbaucus, one word lower case m-a-x-b-a-u-c-u-s. 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1bcb0a9b3b0a4b2a4a291b4b0a3a5b9bdb8bfbaffbfb4a5ff">[email&#160;protected]</a> It's <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791418011b180c1a0c0a391c180b0d111510171257171c0d57">[email&#160;protected]</a> 
Telephone number is 202-224-4375. I just urge you to write me, 
talk to me as we work all these issues through. I'm as 
committed today as I was when I was in Gayla's living room. 
We're going to get this done and done the right way.
    I have four rules in my office. Here are the four rules: 
No. 1 is remember the people we serve; Rule No. 2, do it now; 
Rule No. 3 is do it right the first time, and Rule No. 4 is 
make it fun. So let's together remember who we're serving, do 
it now, do it right the first time, then make sure we have a 
good time doing it, because it's the right thing to do. Thanks 
everybody very, very much.
    [Whereupon, the proceedings concluded at 3:31 p.m.]
    [Additonal statements submitted for the record follow.]
    [GRAPHIC] [TIFF OMITTED] 55925.008
    
    [GRAPHIC] [TIFF OMITTED] 55925.009
    
    [GRAPHIC] [TIFF OMITTED] 55925.088
    
    [GRAPHIC] [TIFF OMITTED] 55925.089
    
    [GRAPHIC] [TIFF OMITTED] 55925.090
    
    [GRAPHIC] [TIFF OMITTED] 55925.091
    
    [GRAPHIC] [TIFF OMITTED] 55925.092
    
    [GRAPHIC] [TIFF OMITTED] 55925.087
    
    [GRAPHIC] [TIFF OMITTED] 55925.093
    
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
